<html>
<title> - THE CRISIS IN HAITI: ARE WE MOVING FAST ENOUGH?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                          THE CRISIS IN HAITI:
                       ARE WE MOVING FAST ENOUGH?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2010

                               __________

                           Serial No. 111-110

                               __________

        Printed for the use of the Committee on Foreign Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
  57-689PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida                          JEFF FORTENBERRY, Nebraska
                                     MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Rajiv Shah, Administrator, United States Agency for 
  International Development......................................     1
Mr. Jimmy Jean-Louis, Actor, Goodwill Ambassador, Pan American 
  Development Foundation.........................................    33
Mr. Samuel A. Worthington, President and CEO, InterAction........    46
Mr. Jonathan T.M. Reckford, Chief Executive Officer , Habitat for 
  Humanity International.........................................    58
Barth A. Green, M.D., F.A.C.S., Chairman and Co-Founder , 
  University of Miami Global Institute for Community Health and 
  Development, President and Co-Founder of Project Medishare.....    67
Ms. Joia Jefferson Nuri, Chief of Staff, TransAfrica Forum.......    72
Mr. Michael Fairbanks, Author, Founder and Director, SEVEN Fund..    83
Ms. Nicole S. Balliette, Deputy Director for Haiti Emergency 
  Earthquake Response, Catholic Relief Services..................    91

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Rajiv Shah: Prepared statement.....................     4
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................    28
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statement...........................    30
Mr. Jimmy Jean-Louis: Prepared statement.........................    36
Mr. Samuel A. Worthington: Prepared statement....................    49
Mr. Jonathan T.M. Reckford: Prepared statement...................    60
Barth A. Green, M.D., F.A.C.S.: Prepared statement...............    69
Ms. Joia Jefferson Nuri: Prepared statement......................    74
Mr. Michael Fairbanks: Prepared statement........................    85
Ms. Nicole S. Balliette: Prepared statement......................    93

                                APPENDIX

Hearing notice...................................................   122
Hearing minutes..................................................   124
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........   125
The Honorable Eliot L. Engel: Material submitted for the record..   128
The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey, and Chairman, Subcommittee on Africa 
  and Global Health: Material submitted for the record...........   130
Mr. Michael Fairbanks: Material submitted for the record.........   134
Written responses from TransAfrica Forum to questions submitted 
  for the record by the Honorable Barbara Lee, a Representative 
  in Congress from the State of California.......................   141

 
            THE CRISIS IN HAITI: ARE WE MOVING FAST ENOUGH?

                              ----------                              


                        THURSDAY, JULY 29, 2010

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:39 a.m. in 
room 2172, Rayburn House Office Building, the Honorable Eliot 
L. Engel, (chairman of the subcommittee) presiding.
    Mr. Engel. Good morning. I think we will get started. I 
want to welcome everyone who is here to the House Foreign 
Affairs Subcommittee on the Western Hemisphere hearing on the 
crisis in Haiti: Are we moving fast enough? We are going to 
dispense with the usual procedure where I would give an opening 
statement and Mr. Mack would give a statement, and others would 
give a statement. We will give our statements before the second 
panel because I know that our first panelist, Dr. Rajiv Shah, 
USAID Administrator, has to leave to go to the White House in 
about 1 hour, and I want to hear what he has to say.
    So let me very briefly say, Dr. Shah, how happy I am to 
have you here. I know we are all very happy to have you here. 
We have talked about Haiti and other things many times. I am an 
admirer of your work, and your caring and the work that you do. 
You bring a very good complement of someone who has done a 
very, very good job, but you also have a heart and that is very 
important. I think that is important. You have the intellect 
and a heart, and that is a very good combination.
    So, we are all ears. Dr. Shah is the Administrator, and 
USAID has a tremendous task in dealing with the crisis in 
Haiti, and it is working very hard, and he, in particular, is 
working very hard to address the problems, so Dr. Shah, we are 
all ears, and then we will ask you some questions.

 STATEMENT OF THE HONORABLE RAJIV SHAH, ADMINISTRATOR, UNITED 
          STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Shah. Let me start by thanking you, Mr. Chairman, for 
your attention to this issue and this hearing, and your 
unwavering support of USAID and our team in Haiti that has been 
working so tirelessly over the last 7-8 months to really help 
make sure that this effort succeeds. I also want to thank 
members of the committee. It is an honor to be here and have 
the opportunity to have this discussion with you, and I 
apologize in advance for my timing today, but I appreciate your 
consideration.
    Two and a half weeks ago served as the 6-month anniversary 
of really the most dramatic and devastating natural disaster to 
ever face the Western Hemisphere, and it is an opportunity for 
us to reflect on the scale of the disaster, the magnitude and 
lessons learned from the response, and to recalibrate our 
approach as we go forward.
    To reflect on the scale of the disaster, we are all aware 
of the incredible suffering that the Haitian people had to live 
through through this tragic earthquake. More than 230,000 
people perished, and damages are estimated to be upwards of $7 
billion, a significant percentage of Haiti's annual GDP, 28 of 
29 government ministries were destroyed, up to 15 percent of 
the civil service workforce had passed away, and most of this 
disaster happened on a base of already low income, slow 
infrastructure and low equity in terms of very high poverty 
rates, high mountain efficient rates, limited access to food 
and basic services in and around certain communities in Port-
au-Prince
    In this context, I remain quite proud of the entire U.S. 
Government and American response. More than half of all 
families in this country found it incumbent upon themselves to 
give directly to the Haitian relief effort. The President asked 
us to mount a swift, aggressive, and coordinated response, and 
together with so many agencies across the Federal Government 
and in particular with the Department of Defense and the U.S. 
Armed Forces we mounted essentially the largest single response 
to a disaster ever. This includes efforts in the food area to 
feed more than 3.5 million people, clean water was provided to 
more than 1.3 million people, the health sector was supported 
with unique assets,including the Comfort Hospital Ship, a broad 
range of medical disaster assistance teams, and support for the 
NGO network in Haitian hospitals that in total U.S. personnel 
saw more than 30,000 patients.
    Shelter, which was perhaps the most difficult of the 
various sectors in which we worked, was also an area where we 
were able to provide 1.5 million people with basic shelter and 
materials; we being the broader international community, and we 
were able to create work opportunities for more than 20,000 
people on a day-to-day basis.
    These are important accomplishments in the context in which 
they took place, and in the fog of relief where data and 
information was often missing. But, of course, they will not 
fully meet Haiti's needs today or going forward.
    To address those needs and to do it in a partnership with 
the Government of Haiti, we have engaged in a robust effort to 
plan the relief to recovery transition. This started with the 
March 31 donors conference that brought the global community 
together to make real commitments to Haiti for its future. 
Notably at that conference the Haitian Government presented 
their own plan and their won vision of a future that is based 
on some central tenants that we are now trying to abide by.
    First, they expressed a commitment to decentralize their 
economy and create economic opportunities and employment 
opportunities outside of Port-au-Prince. That is the defining 
feature of our reconstruction efforts.
    Second, they presented the World Bank and international 
communities damage needs assessment and committed themselves to 
rebuilding the basic infrastructure of Port-au-Prince and of 
nearby communities.
    And third, they presented an economic development plan 
based on the assets that Haiti has for agriculture, energy, 
water management, and a range of other productive growth 
sectors that they could attract investments, create jobs, and 
help build a brighter future.
    The relief to recovery work continued with the creation 
recently of the Interim Haiti Reconstruction Commission. This 
commission, co-chaired by Prime Minister Bellerive and former 
President Bill Clinton, represents a unique opportunity and a 
learning from the tsunami in Acheh Indonesia. What we learned 
was that given the broad global interest and commitments we 
need a strong centralized capability to coordinate and direct 
the overall relief and construction effort. This commission 
will report to President Preval, and take on that task.
    Finally, as we seek to help Haiti rebuild itself we intend 
to help Haiti build back to a better and higher standards, and 
this will require USAID to do some things very differently: 
First, we are committed to pursuing a strategy that is focused 
an aligned and in partnership with the strategy of the 
Government of Haiti. I am eager to talk more about that but I 
feel we are on path in getting that done.
    Second, we are pursuing a broad range of public-private 
partnerships and innovations such as the recently announced 
partnership to help create mobile banking platforms in Haiti 
since such a small percentage of Haitians actually have access 
to the formal banking system.
    Third, we are reforming our procurement system so that we 
can work with small and minority-owned businesses in the United 
States more effectively, and we can work with local partners in 
Haiti so that as we are spending the recently approved 
supplemental resources we are doing that in a way that builds 
real capacity and real institutions in Haiti that can support 
Haiti's long-term development and support Haiti's own 
sustainability.
    Finally, I will just conclude by thanking you again for 
your attention to this issue and your support from the moment 
this crisis started. It is reflective of a unique commitment 
that the people of America have to the people of Haiti and that 
this President shares, and that we are trying to work 
effectively to implement.
    So thank you, and I look forward to your questions and 
comments.
    [The prepared statement of Mr. Shah follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you very much, Dr. Shah. Again my thanks 
on behalf of the Congress and the American people for the job 
you are doing.
    Let me first ask you this: As we look back in the many 
months since the earthquake, what would you say have been our 
biggest failings? What would you say that we need to improve, 
or what have we noticed about the population there that perhaps 
we didn't contemplate several months ago? What can we do in 
Congress to focus on some of these shortcomings?
    Mr. Shah. Well, thank you for that question. There are 
actually a broad number of areas where we can do better in 
these efforts. You know, most of international humanitarian 
relief has been run on essentially a very modest budget 
compared to other comparable activities, and there has not been 
a robust decades-long kind of investment in the coordination 
structures and the capacities to support effective and 
coordinated humanitarian relief abroad.
    So, the first set of recommendations, and we have conducted 
now two different after action reviews and actually just this 
evening are conduct an interagency high-level policy after 
action review, but in the relief space we have a number of 
specific things we are trying to do. One is to establish an 
international relief framework that would help us work in more 
coordination with the United Nations and with other countries 
from the get-go so that we are not creating structures on the 
fly in Haiti or in a disaster relief environment in that 
context.
    Often the U.N. helps set up that structure. In this case 
and in the unique situation the U.N. itself had lost much of 
their capacity in Haiti and suffered a really tragic loss of 
life, so that took longer than it otherwise would to set up, 
but we are working on that international relief framework.
    A second set of things is to have the resources to more 
rapidly bring the kind of assets into the theaters as are 
necessary. In this case the defense department was uniquely 
supportive in being able to open the airport quickly and being 
able to have a strong personnel presence very fast and sending 
the Comfort Hospital Ship. We believe the civilian response 
side needs to have more ready access to certain assets like 
those and others in order to work more effectively.
    The third set of things would be around how we plan the 
relief to reconstruction and oversee that process. Clearly, as 
every step of the way there has been the need to have strong 
and effective decision making from the Government of Haiti on 
many issues that can be seen as very technical issues, and some 
issues that are seen as very significant political issues.
    In both sets of decisions, having a strong and effective 
communications with the government at all levels will be 
effective, and in this case I think we have learned that we 
need to make sure that diplomatic capability is strong, is 
supported, and is continual and operates at all levels so that 
we are not just bringing every big decision that needs to be 
made to President Preval, and asking him to take that one. So, 
I think that those are some of the things.
    In terms of sectors where I think the international 
community could do a lot better job clearly some of the things 
we are working on now related to shelter and ruble removal are 
areas that are immediate priorities, but really you can look 
across every sector of work and identify areas that we can do 
better, sir.
    Mr. Engel. Let me ask you because you mentioned 
reconstruction efforts. The Interim Haiti Reconstruction 
Commission is still not fully staffed, I believe. When will it 
be completely up and running?
    Mr. Shah. Well, sir, the IHRC is an important innovation 
and is absolutely critical to the long-term success of the 
reconstruction effort. I visited there 2\1/2\ weeks ago, and 
actually met with staff. At that point they might have had 25 
or 30 staff. Some of that is consulting support, pro bono 
consulting support from firms here in the United States. But 
they are up and running. I think their goal is to build a 
significant staffing capability and then to physically house a 
few key people from each international aid agency and foreign 
ministry in a single physical space, and that will allow for 
sharing of information and joint planning, and engagement in a 
way that otherwise would simply not be possible, and I know 
that they are in the process of building that team.
    But they are already operational in terms of able to review 
projects and programs, and we are already in a dialogue with 
them to make sure that as we get going with the early 
reconstruction efforts they have approved it, they have 
reviewed it, they have offered their comments, and we are doing 
it in coordination with them.
    Mr. Engel. Before the earthquake, Haiti had been nicknamed 
``the Republic of NGOs'' because there were so many NGOs 
operating in the country. There were estimates between 3,000 to 
6,000 NGOs. If you divide that into Haiti's population of about 
9 million, one NGO per 1,500 to 3,000 people, and public 
services were provided by NGOs instead of the government.
    So let me ask you, is the effect of NGOs, now the donors, 
on the government's capacity a concern for the reconstruction 
effort, and if so, how can reconstruction be pursued in a way 
that enhances rather than undermines the capacity of the 
Haitian Government? How can NGO activity be better coordinated 
among themselves and with the Haitian Government and donors?
    Mr. Shah. Well, I appreciate that question. It is a very 
important one. I would just highlight on your next panel you 
will have Sam Worthington from InterAction who played a 
uniquely helpful role for us in the early relief when we 
provided resources to InterAction to help coordinate the NGO 
operations and bring them into the fold of the larger 
humanitarian and international response.
    I thought that was a very effective, low-cost effort and 
could be a model for future engagement of humanitarian relief 
and how we coordinate with the NGOs. But I would also that as 
we go forward with the reconstruction I know there are a large 
number of NGOs, as has been identified, but if you look at 
which ones are the largest and most capable partners that have 
the most reach, it is a much smaller number, and we need to 
take those NGOs and integrate them into the Interim Haiti 
Reconstruction Commission and make sure they are represented in 
that, and make sure they work along the lines with that.
    I was on the phone just yesterday with the head of the Red 
Cross to make that suggestion, and I think the NGOs, especially 
the larger ones that will have the larger portfolios, will be 
more oriented around participating in that system, and we think 
that is very important. But you called attention to an 
important issue. We dealt with it in the relief effort through 
our partnership with InterAction and through the U.N. 
coordinating structure, but for the reconstruction we are 
hoping that the IHRC will be the vehicle that coordinates those 
activities.
    Mr. Engel. Well, the NGOs have done a wonderful job and we 
all take our hats off to them. Let me ask you one final 
question. As you know, there was an earthquake in Chile shortly 
after the earthquake in Haiti. It was of a much greater 
magnitude than the earthquake in Haiti, but because the 
buildings in Chile are basically built to code, good code, 
there were many, many fewer casualties; I think under 100 in 
Chile.
    When I went to Haiti, it was amazing to me to go into the 
U.S. Embassy, where if you didn't know there had been an 
earthquake you would never know it because our embassy was 
built up to the best building code standards and therefore 
there wasn't any destruction whatsoever that I could see. How 
can we guarantee that when Haiti is rebuilding, and obviously 
it will take many, many years to rebuild Haiti, that we have 
these buildings built up to code so if there is ever an 
earthquake there again the loss of life will be minimal?
    Mr. Shah. Well, thank you for that question. Certainly 
building back to a higher code is absolutely part of the 
strategy of building better, and we have identified about 
400,000 structures, homes that people have left, and are 
conducting habitability assessments for those homes. 
Approximately half of those have been conducted. There was 
about 176,000 completed assessments when I was there 2 weeks 
ago.
    Of those that have been completed, we think about half are 
categorized as yellow homes that need some reconstruction for 
people to move into, and then the others are split between 
green homes that are ready for people to go back into and red 
homes that need to be reconstructed from the ground up. In all 
of those reconstruction efforts we are using improved 
construction methodologies, training local masons and local 
construction firms to work with our partners to do the 
reconstruction in a way that builds back better, to a higher 
and more protective level of code. And we have learned from 
other earthquakes like in Peru, around the world, that unless 
you train and partner with local construction firms and come up 
with low-cost ways to build back to a better code it simply 
will not happen at the kind of scale that I think we all expect 
in order to protect the people of Haiti from future disasters.
    So, in this case we are using local materials for rebar, 
using improved methodology for the production of cement, 
teaching better leveling methodologies. I learned more about 
masonry than I ever thought I would, but it is important in 
order to make sure that we build back to a higher code, as you 
point out, and I think we believe we are able to do it at a 
minimum of additional cost if we use local materials and train 
local firms on how to do that.
    Mr. Engel. Thank you very much. Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman, and I also thank you so 
much for taking the time to be here with us this morning and I 
know you are on a tight schedule, but we do appreciate it.
    First, Mr. Chairman, I think I would like to commend the 
U.S. military for their involvement and swift action, and with 
their help. I would also like to acknowledge the U.S. 
Ambassador who is dedicated to helping the people of Haiti, and 
I would also like to tell the people of Haiti that although it 
has been some time since the earthquake we still think of them 
every day, and that their perseverance shows. There is a lot of 
pride in Haiti, and the remarkable people in Haiti, and so I 
just wanted to make those comments, Mr. Chairman.
    I listened to some of your statement and read some of the 
statement, and then listened to the chairman's questions, and I 
think what kind of goes through my mind is there is some basic 
necessities that are needed. There are things like water, 
shelter, restroom facilities, basic human needs. If you could 
maybe just talk a little bit about where we are in those needs, 
and then also maybe talk a little bit about the bureaucracy or 
the things that may be slowing down what--you know, the 
American people are very giving people, but what they don't 
want is their help to Haiti tied up in red tape and 
bureaucratic processes. There is an expectation that when we 
commit ourselves to Haiti's recovery that we expect to get 
things done and we don't want to hear about how there is a 
bureaucratic problem in delivering those resources, so if you 
could talk to those couple of points, I would appreciate.
    Mr. Shah. Well, thank you for your opening comments. 
Clearly without both the scale and capacity of the U.S. 
military and the professionalism and compassion through which 
our armed services actually provided services in those early 
days and weeks and months this would not have happened at the 
scale at which it did. And I would just point out that many of 
our NGO partners went out of their way to point out that our 
armed forces were actually working in a way that was very 
amenable to partnership with NGOs and with others as they were 
carrying out this mission in Haiti, and I think that is an 
important thing to note.
    I also want to address your points about basic necessities. 
Clearly, as you look across food, water, shelter, latrines and 
a range of other things, the early relief effort was conducted 
at a very large scale. Conducting that relief with that large 
scale comes with some risks as you transition from relief to 
reconstruction.
    So, for example, we had a feeding program that reached 3.5 
million people, largely with free food. Some of the early food 
was purchased locally but beyond that much of it came in as 
food assistance. It was absolutely needed. But we also had to 
track 22 different commodities and markets and understand the 
effect that was having on market prices because Haiti is still 
largely an agricultural economy, and we didn't want to create 
an environment where farmers wouldn't have the incentive to 
produce.
    So, we have worked with the Government of Haiti to scale 
down the free food general distributions, and instead have 
targeted feeding programs for infant and young children and in 
schools, an for pregnant women.
    In water, water has been a real success story where we had 
more because of some unique attributes of the relief effort, 
most notably, the distribution of chlorine tabs with water that 
was trucked in from the Dominican Republic we were able to get 
to a higher level of clean water, clean drinking water access 
in Port-au-Prince than existed pre-earthquake, and initial 
studies conducted by the CDC at 56 different sentinel nodes 
indicated that as a result they felt real disease had been 
reduced in Port-au-Prince compared to pre-earthquake levels by 
about 12 percent. These are very tenuous gains because, of 
course, there is a long road ahead, but it is important to note 
that I think that was a positive outcome.
    Shelter, I think, was the toughest and remains the 
toughest. Millions of people have access to shelter materials, 
but getting into transitional shelters and away from tents and 
other things that are less protective, transitional shelters 
can actually last for 3-5 years, and they can use the basic 
frame of the shelter to build a proper home on, that is the 
challenge now and we are trying to get 135,000 of those built. 
The U.S. Government is committed to building 47,500. The 
overall effort has produced about 6,000 so far, and we expect 
that it will accelerate but it will take some time.
    And latrines and sanitation is a real challenge as well, 
even pre-earthquake the percentage of the population that 
didn't have access to safe sanitation was far too high, so we 
are working on that.
    You asked specifically about what attributes of the 
bureaucracy sort of slowed the process down, and I would say 
coordination across the broad range of donors, partners, NGOs, 
and investors. I would say that decision making on behalf of 
both the government and the implementing partners of the relief 
effort so that when we need to identify land, for example, that 
can be used for reconstructing transitional shelters, so that 
that is done.
    Mr. Mack. You are talking about the Haiti Government?
    Mr. Shah. That is right. That is right. And a lot of times 
they have to have the visibility into what the needs are in 
order to make those decisions and determinations. I am pleased 
to note that in the last few days they have in fact identified 
specific plots of land that can now be used for much 
accelerated rubble removal effort and for much accelerated 
transitional housing effort, but it took a long time to get 
there.
    So, a lot of it is about communication, coordination, 
teeing up the decisions in a way that they can be made, and 
that is why we are placing a lot of emphasis on this Interim 
Haiti Reconstruction Commission and the role that Prime 
Minister Bellerive and President Clinton will have in 
overseeing that effort.
    Mr. Mack. Thank you very much. Mr. Chairman, if I could 
just follow up on the shelter issue.
    What else is needed to move this along? I mean, it sounds 
like it is an extraordinary effort to provide shelter for so 
many people who have lost their homes, and you talked about how 
there needs to be a stage, steps done so you will go from tents 
to a structure, a structure that can then later be modified 
into a permanent home or shelter for people. Can you talk a 
little bit about how that process is going and with a little 
more detail?
    Mr. Shah. Sure. I think that is an important question and 
this is an important issue. We think there are about 1.5 
million people that were displaced, so that is somewhere 
between 300,000 and 400,000 units of shelter that would be 
required. Estimates on how to provide those 400,000 units have 
varied a great deal. I think with recent data from the 
assessments of peoples' homes and structures we are finding 
that we think about half, maybe more, could go back into their 
homes if those homes were rehabilitated and reconstructed in a 
way that gets it to a higher level of standard and safety.
    I mentioned that we are working with local construction 
firms to do that. We still need to complete the habitability 
assessments and then accelerate the process of the 
reconstruction, but that is an important process and it is a 
process where usually donors and partners will help rebuild the 
structure itself, and then the family will come in and actually 
finish the project. They will do the painting, they will do the 
cleaning up, so they are vested in their home again.
    As we are doing it, we are also looking at are there ways 
we can build back up the structures, not just to a higher level 
of earthquake standard, but also put in latrines, put in gutter 
system for rainwater harvesting so that they have basic water 
and sanitation in the home, and do that at a unit cost that 
allows for scale across several hundred thousand units. So that 
is a big part of the strategy to get people back.
    The second part of the strategy is to build 135,000 
transitional structures. They are called transitional 
structures, but the frame of it is a proper housing frame 
with--you know, these are two by fours, metal brackets that 
construct them, and then they start with a tarp that is 
hurricane-resistant and weather-resistant tarp that conforms to 
international standards, but they can then always build on that 
base and build the proper home structure. So that is about 
135,000, and that is the other part of the strategy.
    Mr. Engel. Thank you, Mr. Mack. Mr. Sires.
    Mr. Sires. Mr. Chairman, thank you for holding this 
hearing. Dr. Shah, thank you for being here.
    Dr. Shah, in my district in New Jersey we have a large 
Dominican population, and a few years ago there was the Jiminy 
floods, I don't know if you remember, in the Dominican 
Republic, and we were engaged in bringing supplies and so 
forth. I have to tell you this Jiminy flood is no way near as 
tragic a catastrophe as the earthquake, and when we got to the 
Dominican Republic the biggest problem that I saw was 
coordination, coordination between all the people that wanted 
to help, the international committee making sure that the 
international committee delivered on what they committed, and 
it seemed that everyone wanted to do housing in that section.
    I just want to know who determines the priorities when the 
international committee wants to do housing but who tells them, 
look, we already have France doing house, we already are doing 
housing, we need you to do this, we need you to do that because 
that seemed to be the biggest problem, and getting and making 
sure that all the items that we collected and the monies that 
we collected got to the people?
    We started out as a housing group. We wound up putting the 
money into a school. We wound up bringing the supplies down, we 
were fortunate that the government of Ipolito, you know, gave 
us trucks and everything else to make sure, and we dealt with 
the church to make sure that the people received the supplies.
    How do we make sure that the people get it? There is a 
church involved. I know that the NGOs are involved. But 
coordinating this is a very difficult job. You have a very 
difficult job on your hands because this catastrophe was not 
nearly as large as the one in Haiti, and I will tell you it was 
an eye-opener for me. So can you talk a little bit about that?
    Mr. Shah. I can, sir, and I appreciate your raising the 
question in that context. It is absolutely a challenge of 
coordination, and I would say this requires two or three things 
that I think are happening, and we have to continue to stay 
focused on it.
    First, the largest donors and the largest NGOs and the 
largest international partners have to be committed to a 
coordinated approach against a single strategic plan, and I 
think the donors conference in March in New York was important 
because the donors did commit to that, and the Government of 
Haiti did present a coherent and effective strategic plan.
    Second, you need a structure that brings it together and 
allows for the adjudication of differences, and during the 
relief effort we played a large role in that. Going forward, 
this will be the Interim Haiti Reconstruction Commission, and 
that commission with its unique leadership with both the Prime 
Minister and the former President engaged will, I think, make a 
big, big difference, and I will tell you that on visiting the 
commission and seeing the capacity they are developing and 
seeing their physical plan of putting people from each of the 
major donors and each of the major partners physically in one 
large collective office space, I think that that will have a 
chance to be successful at bringing this together.
    But what we need is we need every partner to be as 
aggressive about committing themselves to that commission and 
to the process of reviewing and dialogue as we are and as other 
partners are, and I know that that is an issue with some of the 
partners, but we are getting through that process to make sure 
that really everyone who is operating at some degree of scale 
is willing to abide by the guidance and governance of the IHRC, 
and I just couldn't agree with your assessment anymore in terms 
of what it takes to be successful in this environment.
    And I would add one final thought. You articulated the need 
to be flexible very well, and I think for us to all be 
successful we can go in with our plan of building a certain 
number of transitional structures or anything like that, but we 
learn new data all the time. I think it was surprising to our 
team to learn that nearly 200,000 homes could be reconstructed 
to a higher earthquake standard at a very low cost and that 
might be a better way to go long term in terms of housing than 
entirely new transitional structures, and we need to be able to 
adapt to that kind of data as it comes in. So thank you for 
your comment.
    Mr. Engel. Thank you, Mr. Sires. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman, and thank you and the 
ranking member for convening this very important hearing, and 
Dr. Shah, it is great to see you again.
    Dr. Shah, the majority of human trafficking cases, 
according to the TIP office, are found among the some 225,000 
restaveks, child slavery in domestic settings. The restaveks 
are not only vulnerable to rape, beatings and other 
exploitation, but are often put on the streets, as we know, as 
teenagers forced into prostitution. They become 
disproportionately the number of street children in Haiti.
    The Haitian national police and NGOs have reported an 
increase in alleged cases of forced slavery and coerced 
prostitution of children and adults since the earthquake. Women 
and girls are increasingly vulnerable to the IDP's self-
appointed security guards who exploit them in exchange for 
protection.
    So my questions would be: What is being done to protect 
these vulnerable women and children, especially in the IDP 
camps? Is restavek prevention and protection incorporated into 
our relief efforts systematically? Is it across the board among 
the NGOs and among the government efforts?
    And one of the recommendation is that there be a--that in a 
trafficking law, domestic obviously for Haiti, that the 
definition of trafficking include child labor because the law 
is not current there.
    Mr. Shah. Thank you, Congressman. It is good to see you 
again and thank you for your consistent commitment to these 
issues. We share your commitment.
    On the specific issue of IDPs and settlements, you know, 
there are a very broad number of settlements in Port-au-Prince 
and around Port-au-Prince, and they differ in their character. 
Some are smaller settlements in communities were people are 
actually not that far from their homes and kind of go back and 
forth, and those types of smaller community settlements benefit 
from the fact that these are communities that have lived 
together, that understand each other, where there are common 
standards of both behavior and policing and oversight.
    The larger settlements that account for the much greater 
percentage of people are where most of these incidents and 
challenges, especially with respect to gender-based violence, 
has been occurring, and we have been very, very focused on 
this, and we know that in these settlements there are a range 
of things that can be done that range from lighting, safe and 
effective appropriately sized areas for latrines and toilets 
and bathroom facilities for women, in particular; some women-
only spaces inside the settlement so people don't have to go 
outside; and some degree of patrolling and supervision and 
policing.
    In the 20 largest camps, we have been working aggressively 
to make sure that all of those attributes exist in those camps. 
They still do not. The UNDP and other partners are helping us 
to identify and put in place lighting to meet all of the 
lighting needs of the largest camps. The camps came together in 
a very sort of rapid ad hoc way, which has made it hard to 
identify the safe spaces for latrines and things like that, but 
that is taking place in a more accelerated manner.
    And on the policing side the Haitian National Police 
together with MINUSTAH have been conducting joint patrols in 
most of the larger camps. Those patrols in some cases are quite 
adequate and quite effective, and in many cases are not, and so 
we are working to help continue to expand their capacity to 
take on that mission, and to really to do it together between 
MINUSTAH and HNP (the Haitian National Police) so that they 
take that on.
    But the gender-based violence issue, in particular, is 
concerning. The data on the number of incidents is very 
unreliable, and we are very focused on that, but thank you for 
your attention.
    Mr. Smith. No, I appreciate that and that response as well. 
Just let me ask you quickly in terms to donor fatigue.
    Are pledges adequate and are pledges being matched by 
follow-up obligations where the money actually materializes, 
and with the approaching hurricane season, which obviously can 
be on Haiti in an instant, are the IDP camps sufficiently 
fortified against that probability? I don't even think it is 
just a possibility that some bad weather could come their way 
soon.
    Mr. Shah. Well, thank you. On donor fatigue or donor 
commitments, we believe that 22 of the 30 donors that made 
commitments at the March conference are on path to living up to 
those commitments and are doing so at a different pace. I want 
to take this opportunity to thank this committee and the 
Members of Congress who supported the supplemental because that 
allows us to live up to our commitments, and many other 
countries are going through similar processes to have the 
actual resources.
    The resources are flowing and are being spent in country, 
but this is also a period of time where there is a lot of 
planning and a lot of working with implementing partners to 
make sure that we set up a system that allows those resources 
to be spent effectively, and sometimes we will make the 
tradeoff to have a more gradual spend rate in order to make 
sure that we do things the right way. We engage local 
businesses, we plan adequately so that the things we do are 
sustained over the long run and really help Haiti achieve its 
long-term aspirations.
    On hurricane preparedness, the United States Government has 
been aggressive about, again, working with the military and the 
civilian side in terms of prepositioning basic supplies for 
100,000 families and in terms of providing support for the 
construction of shelters and planning and joint drill 
activities in high risk areas. Some of the settlements are in 
higher risk areas than others, of course, and so that has to be 
matched.
    You can never be prepared enough in Haiti for hurricanes, 
and so we are going through that effort. Part of what we did 
was help clear out the drainage system. We did large-scale 
debris removal, removing almost 800,000 tons of debris from the 
canals and the drainage system so that in the event of flooding 
related to hurricanes or just heavy rains the disease risk 
would be mitigated and that there would be more protective 
action for people in the settlements. A lot of those 
settlements were shored up and we moved more than 7,000 people 
from the most vulnerable places to safer sites. So, we have 
been working aggressively on that, but you know, it is never 
really enough.
    Mr. Engel. Thank you, Mr. Smith. Thank you. Mr. Payne.
    Mr. Payne. Thank you very much, Dr. Shah. Good to see you. 
Let me commend you for the outstanding work that your agency 
have been doing. Of course, we all know that much more needs to 
be done, so my congratulating you doesn't necessarily mean that 
I am satisfied with what is going on, but I think that you have 
really hit the--many of us have to recall that I guess you were 
sworn in for a day or two when the earthquake hit, and so we 
realize that there is certainly no period of adjustment.
    Let me just ask some quick questions regarding the health 
care. What has been done overall in a short-term strategy to 
deal with the health care needs? Is that under the Interim 
Haiti Reconstruction Commission or is it done by the U.N. or is 
it the Haiti Government that is trying to deal with health care 
in general?
    Mr. Shah. Well, thank you, sir, and we share your comment 
that we are really never satisfied with the work we tend to do 
around the world, so that certainly applies here as well.
    On health care in particular, you know, we had a very 
strong early response with USAID, its partners, its NGOs, and a 
number of others providing some form of health service to 
nearly 300,000 families over the course of the last 6 months. 
In terms of the long-term development of Haiti's health plan, 
we are working with the government and with the IHRC to have a 
single long-term health reconstruction strategy that will 
include expanding the primary care system, it will include 
investing in the university hospital and the hospital system in 
Port-au-Prince, and it will seek to bring into the fold the 
large number of NGOs and others that provide critically needed 
and important services, but we believe if we all work together 
we could do so in a more coordinated way as we do the 
reconstruction.
    In order to support that planning, we have actually relaxed 
quite a lot of the usual constraints that exist on U.S. 
Government resources for the health sector because a lot of our 
resources can be programmed against very specific diseases or 
very specific activities. We have tried to relax those 
constraints and then engage in a single health system planning 
effort, so it would be a very different way of working for us.
    Mr. Payne. Now in regards to the population, as we all know 
one of the basic problems in Haiti was that the main city of 
Port-au-Prince was totally overpopulated and as we know the 
earthquake dispersed the population to some degree. Will 
resources be adequate enough to retain the dispersed persons so 
that there is not the repopulation of Port-au-Prince which, of 
course, exacerbates the problem and was really part of the 
previous problem in the first place?
    Mr. Shah. Yes. Well, certainly on behalf of USAID and U.S. 
Government resources in certain strategic sectors like energy 
and agriculture we are pursuing a very decentralized approach 
to supporting, in agriculture, for example, productive 
watersheds that are, of course, outside of Port-au-Prince, but 
also in the north and along the northwest. So there are 
specific investments we are making to make sure that our 
resources are invested in a way that supports Haiti's plan to 
have more decentralized economic opportunity.
    But I don't think that in and of itself will be enough, to 
answer your question. Ultimately we have to attract private 
investment into those decentralized areas or economic 
development zones, and I know the Haitian Government and many 
others are working with private sector companies in the United 
States and elsewhere to try to attract real private investment 
to sites outside of Port-au-Prince to create jobs and to create 
economic activity. If that happens, I think that is probably 
the key. If that happens, we are prepared to use our funding to 
provide service support to those populations in a decentralized 
way.
    Mr. Payne. Is there any way to utilize the food security 
program that State Department is implementing actually through 
USAID worldwide, particularly in Africa, and some of those 
principles to be used in Haiti?
    I think if we look at possible economic growth, it seems to 
me that agriculture is a natural, and that could also combine 
with the population dispersement of trying to keep them in the 
less developed areas.
    Mr. Shah. Yes, sir, that is a great suggestion. We in fact 
are--Haiti is one of the Feed the Future--Feed the Future is 
our term for that program. Haiti is one of the first four Feed 
the Future countries. That means that we have sent special 
planning teams. We are working with the ministry in a different 
way to look at the whole agriculture sector, tie it together 
with its nutrition and health programs, and to invest in a 
productive agricultural approach in Haiti that could really be 
the backbone of distributed economic opportunities.
    So, that is exactly what we are doing in the agricultural 
sector, and it is important to note that that was actually 
underway prior to the earthquake. In fact, last August when I 
was at the U.S. Department of Agriculture as part of the Feed 
the Future effort I went to Haiti to work on planning and 
preparing for that program, so Haiti has maintained, in fact 
redoubled its commitment to that approach, and the United 
States as a partner has also done the same.
    Mr. Payne. Thank you.
    Mr. Engel. Well, thank you, Mr. Payne. Ms. Lee.
    Ms. Lee. Well, thank you very much. Thank you, Mr. 
Chairman, for this hearing and for your leadership on these 
issues that are so important to Haiti, the Haitian people and 
to our own country, and Dr. Shah, I want to thank you again. I 
guess you have been here three times this week and I think that 
is a testament really to your commitment to your work, to 
Haiti. Given our short attention spans in our own country, we 
know that the focus is easily diverted once an issue is taken 
off of the front page, so I just want to thank you for your 
sustained commitment and your staff's.
    I want to follow up on the issue as it relates to food and 
agriculture, but primarily U.S. food policy. Several times, and 
I know President Preval has urged our administration and other 
donors to make room for food purchases directly from local 
producers so that Haitian can really help themselves in the 
recovery effort, and of course the implication is that U.S. 
food policy, because of our--you know, the fact that it relies, 
and Haiti relies on imports of U.S. commodities, that this 
policy may be actually undermining the effort of local farmers 
and local entrepreneurs. So I would like to find out if in fact 
we are trying to find ways to help make sure that food can be 
purchased directly from local farmers and local entrepreneurs 
and lines of credit are there and available for that.
    Secondly, let me ask you about the direct budgetary support 
for the Government of Haiti. They do have a democratically-
elected government. I know there are a lot of issues around 
budgetary support, and I am wondering what your thoughts are as 
it relates to Haiti, and are we moving at all in that 
direction?
    Next, I would just like to, and I visited Haiti not too 
long ago, and I had a chance to talk with Sean Penn, and he is 
doing remarkable work there, and there were many issues we 
discussed, and I wondered if you all are in touch with Sean. He 
has a lot of ideas. He has been on the ground. I mean, he has a 
deep commitment to the recovery of Haiti. We talked a lot about 
what happens when the hurricanes come. And I am not sure, thank 
goodness, you know, so far so good. But have we been able to 
move everyone into higher ground or into stronger kind of 
housing, tents or wherever?
    And then finally, you know, my bill, the Next Steps for 
Haiti Act, we have to be able to begin to support the Haitian-
American community, and Haitians in the diaspora in terms of 
going back to help in the development and in the reconstruction 
effort of Haiti, and I am wondering your thoughts on that. We 
are beginning to move in that direction but I want to make sure 
that we have a fully funded and supported effort within USAID 
to help promote Haiti's reconstruction efforts with the skills 
and the experience of the Haitian-American community?
    Mr. Shah. Thank you. Well, thank you for your really 
tireless commitment to this issue and to continue to help us be 
successful with it. I will just address these in turn as 
effectively as possible.
    On food and agriculture and local purchases, you know, the 
very first purchase of food was 6,00 metric tons of rice that 
we did purchase locally for expressly that purpose, and through 
the relief effort we tracked the prices of approximately 22 
different commodities to look at our market effects. As we go 
forward with Feed the Future plan of which I just spoke, we 
will be looking actively at how can we support local purchase 
of food and food aid programs, and how can we study the impact 
of our own food assistance efforts to apply those efforts in a 
way that minimizes any market distortion it would create. 
Agriculture is going to be the backbone of Haiti's economy for 
most participants, and we need to make sure we get that right.
    On budget support, the two big issues for us are compliance 
and recourse, and if we can work through and develop mechanisms 
that will allow for compliance and recourse we can provide more 
budget support. We are starting to do it by providing $30 
million to the World Bank Trust Fund which will be tied to 
budget support, and we will look at a range of other tools as 
well so long as they allow for the kind of compliance and 
recourse that we need to be able to track resources.
    On JPHRO, which is Sean Penn's organization, we have worked 
quite closely with him, and in fact when I was last there we 
met in Delmas 32 neighborhood, and are trying a pilot effort 
with them to say is there a way for us to do the habitability 
assessments of home structures and reconstruction of homes that 
need to be elevated to a higher standard in coordination with 
his group so that we can then transition those people back to 
their homes in a coordinated way, and I think if that works 
that should become a model for how we might be able to work 
with different communities of people in settlements so that we 
can kind of in one move improve their basic home living 
conditions, and then help them transition back, and we need to 
coordinate with the NGOs and partners providing services in the 
settlements in order to do that effectively, so I am watching 
this very closely, and I appreciate his really tireless 
efforts, and he is not--he has really been there from the 
beginning and has been working very, very hard to help provide 
that service.
    And finally, I would perhaps ask if we could ask for your 
continued help with connectivity with the Haitian-American 
community. It is our aspiration to do work in that way. One of 
our first large contracts for clearing rubble and improving the 
canal and drainage systems went to a 8(a) firm and to a 
Haitian-American-owned business. We are trying to do outreach 
in different districts around, making sure that people are 
aware, how they can plug into the procurement system, but we 
will need your continued support and we would look forward to 
your continued support to make sure we make those connections 
effectively.
    Ms. Lee. Thank you, and just let me thank Mr. Chairman for 
your support. We are trying to get H.R. 417, the Next Steps for 
Haiti Act done.
    Mr. Engel. Well, we should, and we thank you for all of 
your efforts. You have certainly been a leader in the Congress 
on these issues, and we really do appreciate it.
    So, Dr. Shah, I know we promised you and your staff that we 
would have you out of here by 10:30. We have made it except for 
a couple of minutes. I really just want to thank you, and I 
know that we are going to have continuous dialogue. You know, 
this hearing is called ``The Crisis in Haiti: Are We Moving 
Fast Enough?'' That is what we really want to focus on; we all 
know what needs to be done, but we want to make sure that we 
are moving fast enough.
    Mr. Shah. Thank you.
    Mr. Engel. So thank you so much and thank you for the job 
you are doing.
    Mr. Shah. Thank you.
    Mr. Engel. Okay, we will pause for about 1 minute or 2, and 
we will give our next panel a chance to come up. We will put 
the name plates down, and then we will call them all up.
    Before I introduce our panelists on our second panel I am 
going to give my opening statement that we pushed back because 
of Dr. Shah needing to be with President Obama at 11 o'clock, 
so let me do that, and that will give our panelists a chance to 
settle down for a few minutes.
    So, I want to thank Dr. Shah, as I mentioned before, for 
testifying, and he only had a short time with us, but it is 
obvious that USAID has an enormous task in dealing with the 
crisis in Haiti and is working very hard to address the 
problems.
    In March of this year I visited Haiti to bear witness to 
the horrific loss of life and devastation which befell the 
country on January the 12th. I surveyed the damage done to the 
land and physical structures of Haiti. It was my intention then 
and remains my profound wish that the people of Haiti know that 
the United States is committed to help them rebuild their 
nation.
    As chairman of the Western Hemisphere Subcommittee of the 
House Foreign Affairs Committee, I want to determine what more 
America can provide to help Haiti recover from this tragedy and 
emerge as a stronger nation. As a representative from the 17th 
District of New York, which is my district and we have a large 
community of Haitian-Americans. I believe we have the fourth 
largest population of Haitian-Americans in my district of any 
of the 435 districts in the country, so I have one of the 
largest Haitian communities, and we mentioned, as Dr. Shah 
mentioned, that it is very important to coordinate everything 
we do in Haiti with the Haitian-American community. So I want 
to experience firsthand what happened to their homeland and to 
help bring back answers to my constituents.
    As a human being, I went to see the faces of the victims of 
this earthquake and to offer whatever assistance I could 
provide them.
    Haiti will recover and America will be standing side by 
side with our neighbor. For now we are doing everything in our 
power to accelerate that recovery. Haitian-American communities 
in New York, especially in my district in Spring Valley and 
Nyack, and other states have welcomed victims with open arms. 
Our schools, such as the East Ramapo School District have taken 
in children displaced by this natural disaster and are 
educating them, and likewise, Haitian-Americans from all over 
the country have shown their sympathy for the people of Haiti 
and the generosity of approximately $1 billion given to Haitian 
relief.
    Let me also say that as our schools take in Haitian 
children, we in the Federal Government have to compensate these 
schools to make sure that they have adequate funds to educate 
these children. The burden should not simply fall on the local 
communities where Haitian children are coming in. The Federal 
Government has a responsibility to provide for the education, 
to help pay for the education, otherwise the education will be 
inferior not only for the Haitian children that are coming in, 
but for all children in that school district if we don't 
provide them with more money.
    The devastation in Haiti was all-encompassing. The 
destruction was so complete it is really hard to know where to 
start. Should the international community focus first on 
shelter, health care, education, agriculture, economic 
development, or must we address all at the same time? And 
regardless of how we prioritize our response in Haiti one 
question keeps coming to mind as I think about the crisis in 
Haiti, and you will see this in the title of today's here as I 
mentioned: Are we moving fast enough?
    For more than 6 months have now passed since the earthquake 
and so much has yet to be done. We simply must carry out the 
relief and reconstruction program as fast as we can, and at 
this point I am not sure if we are moving fast enough.
    Of the 2 million people who have been displaced in Haiti, 
approximately 1.5 million are still in camps. As of earlier 
this month only 5,000 transitional shelters had been built in 
Haiti. USAID's Haiti Task Team Coordinator Paul Weisenfeld said 
on the 6-month anniversary of the earthquake that the 
international community has promised to build 125,000 shelters 
for about 600,000 people by July 2011. But that will leave up 
to 1 million people without homes, and there are concerns that 
the Haitian Government has not resolved land titling issues so 
there aren't yet enough locations to resettle the large numbers 
of displaced people.
    Given this, again I ask are we moving fast enough? I want 
our panelists to please keep that question in mind when they 
give their testimony. Are we moving fast enough in providing 
shelter to displaced people in Haiti, and is the Haitian 
Government moving fast enough to work out land title issues so 
that the land can be set aside for additional shelter?
    I have often heard that one of the greatest obstacles to 
rebuilding Haiti is that there is so much rubble from the 
earthquake which needs to be removed so it is hard to get new 
construction going until this rubble is removed. I saw this 
with my own eyes when I visited in March. In fact, there is an 
estimated 25 million cubic meters of rubble to remove, but 
almost no place to put it but into the sea. As a point of 
comparison, the tragic destruction of the World Trade Center on 
September 11, 2001, created 560,000 cubic meters of rubble. 
Some have said it will take 2 years to remove the rubble, and 
estimates range up to 10 years. Once again, are we moving fast 
enough to deal with the rubble removal problem?
    And since the earthquake various multilateral institutions 
of 48 countries and the coalition of NGOs, non-governmental 
organizations, pledged approximately $10 billion toward the 
long-term construction efforts in Haiti. However, according to 
a recent article in the New York Times by former President Bill 
Clinton and Haitian Prime Minister Jean-Max Bellerive, co-
chairs of the Interim Haiti Reconstruction Commission, only 10 
percent--this is the quote--``of the 5.3 billion pledged by 
governments at a U.N. conference in March has been disbursed to 
the Haitian Government without reliable schedules for 
disbursement.'' And that is from the Interim Haiti 
Reconstruction Commission.
    Clinton and Bellerive say, ``The Commission is unable to 
plan, finance projects or respond quickly to immediate needs.'' 
It is hard to understand with the crisis as large as that faced 
in Haiti that the money is not flowing faster. So I ask again, 
are we moving fast enough in collecting and disbursing the 
pledged money for Haitian relief?
    With respect to the IHRC, this critical body is only 
supposed to exist for 18 months to support the Haitian 
ministries and provide grants for rebuilding projects, but now 
more than 6 months after the earthquake it is still not yet 
fully staffed, as I mentioned to Dr. Shah. Indeed it is 
possible that the IHRC still requires another month or 2 to get 
its act in gear. With the enormity of the task ahead and the 
key commission not fully up and running, again are we moving 
fast enough in Haiti?
    Finally, we must not think that because the problem to be 
fixed is in Haiti the answers are all to be found there. Here 
in Congress we face long delays on passage of a supplemental 
appropriations bill which contains $2.9 billion in support to 
support relief efforts in Haiti. We should have moved faster, 
but I am glad that we have finally sent the bill to the 
President for his signature.
    Regardless, I think I have conveyed my concern in looking 
forward to this panel and today's witnesses so we can address 
the question are we moving fast enough in Haiti.
    Mr. Mack has said that he doesn't have a long lengthy 
statement. He just wants to make a few comments, and I am sure 
he concurs with the statement that I just made, so I turn it 
over to Mr. Mack.
    [The prepared statement of Mr. Engel follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Mack. Thank you, Mr. Chairman. You just washed some 
work on the fly because I told him I wasn't going to say 
anything and he adjusted quickly. But I do want to associate 
myself with your opening statement and in the interest of time 
I will not have an opening statement other than to thank you 
all for being here, and this is really an opportunity, I think, 
for you, for us to have a discussion on what we can do to 
improve recognizing that there has been a lot done, there is a 
lot to be proud of, but there are things that also need to be 
done to make it better. We are only one hurricane, one 
earthquake, one other disaster away from a huge setback and we 
need to make sure that we have plans in place, people in place, 
structures in place that can ensure that the people of Haiti 
have a chance to a better future.
    So that with that, Mr. Chairman, thank you for putting this 
hearing together today.
    [The prepared statement of Mr. Mack follows:]
    

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you, Mr. Mack. Ms. Lee, do you have an 
opening statement?
    Ms. Lee. Just very quickly. Again, thank you, Mr. Chairman, 
and thank all of you for coming, and thank you for staying the 
course.
    I think out of this crises we do have some opportunities if 
we can just get past the crisis. It is, again, 6 months. The 
cameras are gone, but it is those of you who are really staying 
the course, and I just want to thank all of you for taking the 
time to come here so that we can stay the course, and I 
especially want to welcome Mr. Jimmy Jean-Louis. Thank you for 
being here, and thank you for your work. Many of you continue 
to work with the Congressional Black Caucus which has been for 
so many years in support of Haiti and the Haitian people. So 
just welcome, look forward to your testimony, and thank you 
again, Mr. Chairman.
    Mr. Engel. Thank you, Ms. Lee. We have been joined by my 
fellow New Yorker, Mr. Meeks. I would like to give him the 
opportunity for an opening statement.
    Mr. Meeks. Thank you, Mr. Chairman, and I, too, want to 
join my colleagues in thanking you for staying the course for 
long after the cameras were gone, that we would have a lot of 
work to be done. I have had the opportunity to visit Haiti in 
the interim and there is no question that there is a lot of 
work to be done. What concerns me is that we have a balance 
because we have short-term work to be done, and we can't forget 
that, and we have long-term work to be done, and we can't 
forget that.
    There seems to be at times we get out of balance. You know, 
whether we get the money is not flowing, as the chairman has 
indicated, whether it is flowing quick enough or not, but even 
the distribution of aid. You know, at one point we said that--I 
know in another committee I sit on, you know, when I sit on the 
International Monetary Policy and Trade, we had a couple of 
hearings there. Mr. Fairbanks, you were one of the witnesses 
there where we talked about private enterprise and how we have 
got to get it up and going, and moving.
    And at one point it seemed as though we had a lot of food 
that was coming in, and we heard individuals saying that, well, 
that is not helping the small business person because they are 
not able to sell anything, so therefore they are going out of 
business, and that is not going to help the long term. Now I 
hear, you know, that there is not enough food coming so people 
are now starving again and looking to going back to eating mud 
pies and things of that nature because they don't have any 
money to cater to some of the small businesses.
    How do we get that balance is what I am--you know, we have 
got to focus. One of the reasons why I had submitted a bill 
talking about a Marshall Plan was trying to think we could get 
expertise in each area that are talking and coordinate with one 
another so that we could be moving and organized and talking to 
one another so that we can get a balance so that we can move 
forward and try to take care of all segments.
    There had been some hope at one point that we would be able 
to create new towns outside of Port-au-Prince that would create 
jobs and opportunities for individuals, to prevent the 
overcrowding as we try to get the rubble out of Port-au-Prince, 
but it seems to be very little, if any, movement in that 
direction. How do we get that to happen? Where is the 
coordination between the former President and the current 
government and some of the foreign government?
    You know, I get frustrated at times, to be quite honest 
with you, and that is why I would love, and I thank you for 
being here so that we can listen and learn and understand what 
is going on in that regard.
    So I will stop there and just say I, like the chairman, I 
have a number of Haitians that live in the district, it is 
either the second or third largest in the country, and they 
are--you know, so much resources, so many great opportunities 
in Haiti.
    Lastly, let me just say this because I forgot to give it 
out and this is, I think, Mr. Fairbanks is going to testify to 
that, what is this marriage between Haiti and the Dominican 
Republic? We had a meeting not too long ago, many of us in the 
Congressional Black Caucus with the President of the Dominican 
Republic who talked about his willingness in looking to work 
collectively with the Government of Haiti to make sure that 
they can employ people and train people, but I would like to 
hear more about that marriage and how do we get this done.
    So, Mr. Chair, I stop there and thank you for having this 
hearing today.
    Mr. Engel. Thank you, Mr. Meeks, and let me just say that 
you mentioned the President of the Dominican Republic. He is 
really very enlightened because he is really a New Yorker like 
you and me, you know, having been raised in New York and 
growing up in New York.
    I am really now pleased to introduce our distinguished 
private witnesses for this second panel, and we do have a 
distinguished panel of witnesses. Jimmy Jean-Louis is an actor, 
best known for his role as the Haitian in the NBC series 
``Heroes.'' This was an appropriate role since Jimmy is 
actually Haitian and was born in Port-au-Prince. Today he is 
Goodwill Ambassador for the Pan American Development 
Foundation. Welcome.
    Samuel Worthington is president and chief executive officer 
of InterAction. Welcome to the panel. Jonathan Reckford is 
chief executive officer for Habitat for Humanity International. 
Welcome.
    Dr. Barth Green is chairman and co-founder of the 
University of Miami Global Institute for Community Health and 
Development, and is president and co-founder of Project 
Medishare, but most importantly he is a personal friend of 
mine, and I look forward to hearing his testimony. You know, if 
you go to south Florida, and my parents lived in south Florida 
for 30 years so I am familiar, all you have to do is mention 
the name Barth Green and everybody knows him. So if he ever 
gets involved in politics, you know the other representatives 
from south Florida have to really kind of worry, so welcome.
    Joia Jefferson Nuri is chief of staff of TransAfrica Forum. 
Welcome. Michael Fairbanks is an author and founder and 
director of the SEVEN Fund. Mr. Meeks has already mentioned 
that he has testified on a lot of these important matters 
before. Welcome. And Nicole Balliette is deputy director for 
Haiti Emergency Earthquake Response for Catholic Relief 
Services. Let me say this panel is so distinguished that every 
time we wanted to kind of keep it small, I would get a phone 
call--so and so would like to be added to the panel--and 
everyone was so good I could just not say no.
    So let me just say to the panelists, you have 5 minutes to 
summarize your testimony. You don't have to read it. You could 
submit it for the record and it will be in the official record, 
and just summarize it. I am going to keep everybody to the 5 
minutes, and I am going to be a little heavy with the gavel 
because that way it will give us a chance to ask you questions 
where I am sure you can give us better answers than opening 
statements.
    So thank you all very much for being here, and I call on 
Jimmy Jean-Louis.

STATEMENT OF MR. JIMMY JEAN-LOUIS, ACTOR, GOODWILL AMBASSADOR, 
              PAN AMERICAN DEVELOPMENT FOUNDATION

    Mr. Jean-Louis. Good morning. Is this working?
    Mr. Engel. Yes. You might want to push it a little closer 
to you, and then we can--no, it doesn't move?
    Mr. Jean-Louis. Hello.
    Mr. Engel. That is better. You always know an actor can 
kind of--you know, I grew up in a household, Jimmy, with a 
mother who is an actress, and growing up in New York my mother 
always did these bit parts on broadway, off broadway I should 
say, and bit parts in movies and she always told me you need to 
project from your diaphragm, she used to say to me--so project 
from your diaphragm.
    Mr. Jean-Louis. You are giving away my tricks. [Laughter.] 
It is not good.
    Well, on behalf of the Pan American Development Foundation 
I thank you, Mr. Engel and the other distinguished members of 
this subcommittee for the opportunity to testify here, Mr. 
Meeks, Mr. Mack, Mrs. Lee.
    Today I am appearing before this committee as the Pan 
American Development Foundation's Goodwill Ambassador, and as 
the president of the nonprofit organization Hollywood United 
for Haiti. Also extremely important, I am here as a Haitian 
that had a chance to go to Haiti just days after the 
earthquake, and the smell of the burning flesh, the cries of 
the survivors, and the desperation of the people in the capital 
will stay with me for life. It took me about 5 days to dig the 
body of one of my dear friend who is 28, or was 28 years old. 
It took me 5 days to get him out of the rubble of my own house, 
just to find a piece of arm, nothing else.
    I want to say thank you to the people of the United States 
for coming to Haiti's assistance after the deadly earthquake. 
Haitians will remember the generous support, acts of kindness 
and prayer on their behalf.
    The crisis Haiti, are we moving fast enough? No, if I have 
to answer real quickly. Too many Haitians continue to live in 
despicable conditions with little hope of moving into recovery 
phase in the foreseeable future. I mean, obviously this is not 
a criticism to any particular person, government or non-
governmental organization. Some of the things worked.
    What worked? Although the list of people, project, and 
activities is very long, the following are just a few examples 
of what I think worked. President Obama's immediate pledge of 
U.S. assistance proved critical to opening a life line to 
Haiti. The media did a great job the first couple of weeks. The 
NGOs played a huge role in saving the day. If it were not for 
their dedication, however the number of Haitians would have 
died, suffered needlessly, would have been far greater.
    So the programs worked well such as the Cash for Work. 
Haitians want to work. They don't want handouts. Tens of 
thousands of Haitians have found temporary employment cleaning 
streets, clearing drainage canals and removing rubble. These 
Cash for Work programs are also a major step in reviving 
devastated neighborhoods.
    The human rights, and this one is a very important topic 
for me, for years Haiti has faced serious problems with 
trafficking of persons, forced labor, exploitation of children, 
and violence against woman; nonetheless the January 12 
earthquake caused these problems to explode. After the quake a 
number of highly qualified national and local NGOs stepped in 
and helped. Safe areas were established for children. Medical 
services were provided. Support to government agencies 
increased, and other activities. Settling, monitoring was set 
up to limit the number of acts of aggression against women and 
children and that was something that was done by the PDF. They 
also launched an anti-rape campaign in the displacement camps.
    Although very far from sufficient to meet the current 
demands, these programs have gone a long way toward addressing 
the critical human rights problems.
    What did not work? I just would like to mention some of the 
problems and we know that the list is pretty long. The camps, 
the IDP settlements, more than 1.2 million people are living in 
the horrible conditions in temporary displacement camps right 
now in Haiti, and some of those camps are in the key areas in 
the main city of Port-au-Prince. I am talking about the 
airport, Presidential palace, the squares. Those displacement 
camps are very dangerous. They are overcrowded, lack sanitation 
and are well on their way to coming permanent settlements, 
unfortunately.
    Security is starting to be a problem because of those camps 
as well, and also because of the prisoners that escaped from 
the collapsed prison. We have been pretty lucky in the past 
couple of months because of the World Cup, that kept a lot of 
people quiet. Unfortunately, the World Cup is gone. People have 
less patience. The hurricane season is coming up, so I fear 
that security might be a big problem in Haiti in the next few 
weeks.
    The coordination and cooperation, we cooperated in the 
beginning but that has slowly faded, I think. We all need to 
set a line our institutional objectives and reach out to all 
stakeholders, break down barriers, and focus on the outcome for 
Haitians.
    Now from crisis relief to recovery, there is a lot to do 
there. Moving Haiti from crisis relief to recovery is much more 
complicated in Haiti than more developed countries. The PADF 
believes that the key areas that must be taken in consideration 
as we move from relief to recovery, as most of you know as many 
as 18,000 government employees died in the quake. Many were 
mid-level technical specialists and managers. I think one 
relevant donors like USAID should require on-the-ground 
implementors to include a component that strengthen the 
Government of Haiti.
    I am going back to the human rights. The human rights 
abuses and violence against woman and children has to pass the 
crisis point. They are a direct result of insecurity. The PADF 
just did a survey about 3 weeks ago, and in a camp in Santeis. 
Out of 4,000 people, 300 girls are pregnant, teenage girls on 
the age of 13, 14, up to the age of 18, and we are not speaking 
about the ones that are not pregnant, the boys that can't be 
pregnant, so we can easily see what kind of problems we could 
have in these camps, or are having in these camps.
    The reconstruction, you know, I think Haiti could have a 
bright future because we have nothing left. You know, 
everything have to be rebuilt. We have to start over again. I 
think we have a great chance to think, to think green, you 
know. Finding sustainable solutions to long-term issues such as 
renewable energy, I encourage everybody to go in that direction 
because we have the technology to go there. Why not try it in 
Haiti and make an example out of Haiti, maybe for the rest of 
the world as well?
    Mr. Engel. Mr. Jean-Louis, could I ask you to summarize the 
rest of it in about 1 minute?
    Mr. Jean-Louis. Yeah.
    Mr. Engel. And then we will ask you some good questions, 
you can give some of the other statements that you had.
    Mr. Jean-Louis. The lucky thing is I have 30 seconds left.
    Mr. Engel. Okay, excellent.
    Mr. Jean-Louis. Well, obviously, the Haitian diaspora also 
are key component in the reconstruction and the rebuilding of 
the future of Haiti, and I am going to go with some of the 
ideas I have heard as well from Congressman Lee. The Next Step 
For Haiti Act, I think it is something that we should consider. 
There are some other bills as well such as the Haitian 
Enterprise Fund by Congresswoman Clark. And as you know the 
Small and Micro Enterprises, that is something that works as 
well. It worked in many other countries and I think it can work 
in Haiti because it creates jobs for the poorest.
    So once again thank you very much, Chairman Engel. I would 
like to conclude by saying that so many organizations, 
governmental and non-governmental have done an Herculean effort 
to help Haitians during this unprecedented crisis. Can we do 
more? Yes. Yes, we can by focusing on strategic pieces of 
problem. We can continue to effect change on the ground. 
Eventually we will move from crisis relief to recovery. The 
challenge for all of us in this hearing as well as those in the 
field is to ensure that we select the right pieces and properly 
fund them.
    And I would just like to add that PADF would welcome the 
opportunity to participate as one of the NGOs on the 
reconstruction commission that the doctor just mentioned 
earlier on.
    [The prepared statement of Mr. Jean-Louis follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Engel. Well, thank you very much for excellent 
testimony. I let you go over by several minutes because I 
wanted to hear your very heartfelt testimony. Obviously coming 
from Haiti you have a special relationship and it was very good 
to hear your testimony, and we will ask you questions, I am 
sure. I would like to ask the other witnesses to try to keep it 
within the 5-minute rule.
    And I want to also acknowledge we have been joined by 
Congresswoman Maxine Waters of California, who is not a member 
of the House Foreign Affairs Committee, but has been a leader 
in the Congress in caring about Haiti. It did not take an 
earthquake to get Maxine to participate in Haiti. She for many, 
many years both in private conversation with me and things that 
she has done publicly, like Ms. Lee, I think the two of them 
have really been the leaders in the Congress in terms of caring 
about Haiti, and working for it, so we welcome Congresswoman 
Waters to our panel.
    Mr. Worthington.

  STATEMENT OF MR. SAMUEL A. WORTHINGTON, PRESIDENT AND CEO, 
                          INTERACTION

    Mr. Worthington. Chairman Engel, Ranking Member Mack, 
members of the subcommittee, thank you for the opportunity to 
testify this morning.
    InterAction is the largest coalition of U.S. nonprofits 
operating overseas. Our members were the primary actors on the 
ground as the earthquake hit and right after. We had 82 
InterAction members operating in Haiti. Their staffing levels 
went from 2,300 when the earthquake hit, unfortunately with 
loss of life, to around 8,000 now operating in Haiti.
    The key question that you ask is are we moving fast enough. 
I just want to stress the how fast people did respond in the 
emergency phase, and that the challenge we are facing now in 
reconstruction is largely due to the poverty of Haiti, the lack 
of capacity of the Haitian Government, but also the limited 
capacity of the international community to effectively respond 
to an urban disaster of this scale.
    I think one analogy I have, all of us have dealt with 
Washington, DC, traffic gridlock. Try getting across Port-au-
Prince if you had 1,000 trucks descend on Port-au-Prince right 
now would just make that 2-hour transit to become 3 hours, so 
it is an awfully tough environment to operate.
    Really to stress at first the resilience and the 
entrepreneurship and the capacity of the Haitian people is 
tremendous. To start with the issue of coordination, as Dr. 
Shah mentioned--USAID funded a coordination office for the NGO 
community that InterAction led. This coordination office was an 
important effort. Just to give you a sense, a 21st century 
disaster by definition results in church groups from Europe and 
America coming down to try to help. But we do have a situation 
where the 15 largest organizations, in essence, these private 
organizations are, these nonprofits are 90-plus percent of the 
resources and that ability of that smaller group and other 
professional groups to coordinate is actually quite 
significant.
    I would also make a distinction of the Haitian civil 
society has often, a comment that you made of so many NGOs per 
capita and so forth, you mentioned one per 1,500. If you look 
at the number of nonprofits per capita in the United States 
there is one for 260 Americans, so I think this base of 
volunteer organizations is a fundamental element of democracy 
in a society.
    It is crucial, however, that the international groups that 
come in are accountable. We have launched, thanks to funding 
from Federal Express and a partnership with the U.S. Chamber of 
Commerce, a map that maps the major NGO activities, not just in 
Port-au-Prince, but across Haiti. This mapping effort continues 
to be under development as to where resources will be spent and 
so forth.
    To date, $1.2 billion has been raised by nonprofits in the 
U.S. Of this amount, $978 million was for InterAction members, 
$467 million was allocated for relief activities, of that 
amount $323 million has already been spent, and $511 million 
was set aside for reconstruction. Our challenge in spending is 
actually a concern that the magnitude of the relief effort will 
pull resources out of reconstruction in terms of private 
resources. I am not talking here, of course, about the 
significant partnership we have with the U.S. Government 
resources.
    In terms of the way going forward, we all know that we are 
going to be confronted with ongoing humanitarian need while 
doing reconstruction. Our priority in the reconstruction phase 
will be resettlement, as mentioned by others, but it is 
important that this new commission on resettlement set up by 
President Preval will bring community-based support and a 
resettlement strategy. We do also have the challenge that in 
terms of sanitation and health, in many ways water and 
sanitation is better off in the camps now than where people 
might be moved, and there is this critical ongoing challenge of 
feeding people.
    One of the areas that is critical for the reconstruction of 
Haiti is the relationship between the Haitian Government and 
Haitian civil society, and at this point in time there is 
limited outreach from the Haitian Government to Haitian civil 
society, and it is crucial that this broad capacity of Haitian 
people be engaged.
    All the members of InterAction and other major NGOs are 
committed to working with the Interim Commission--to second 
staff to it, to help build the government capacity. To some 
extent we have seen limited outreach to the NGO community. We 
had the opportunity to meet with the Prime Minister and 
President Clinton last week on this.
    To conclude, are we moving fast enough? The answer, of 
course, is a nuanced one. There is a challenge and a disaster 
side to point fingers at who can move faster or not. The 
reality is we have a disaster that has overwhelmed the 
international system's ability to respond. I participated in an 
evaluation for President Clinton of the tsunami response. This 
one, our coordination was far better here, but it has a long 
way to go, and I think the real challenge here is to maintain a 
focus on Haiti.
    And I would like to suggest, please, if we could have some 
form of 1-year event because there will still be people in 
camps, still challenges going, and if we could have major 
donors refocus on Haiti. The American people were tremendously 
generous and the nonprofits, commonly known as NGOs, continue 
to do what they can to make a difference on the ground.
    I would like to thank the chairman and the subcommittee for 
the opportunity to testify. Thank you.
    [The prepared statement of Mr. Worthington follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you, Mr. Worthington. Mr. Reckford.

   STATEMENT OF MR. JONATHAN T.M. RECKFORD, CHIEF EXECUTIVE 
          OFFICER , HABITAT FOR HUMANITY INTERNATIONAL

    Mr. Reckford. Good afternoon, Mr. Chairman.
    Member of the committee and friends, on behalf of Habitat 
for Humanity I appreciate this opportunity to share with you an 
update on the shelter needs and recovery efforts in Haiti 6 
months after the devastating earthquake. Before I begin, I want 
to acknowledge my fellow panelists and thank you all for what 
you are doing in support of the people of Haiti. I also want to 
recognize the hard work and dedication of each of our staff 
member and all those who are working so hard in Haiti right 
now. I am honored to be with you today.
    Habitat for Humanity is an ecumenical christian ministry 
that welcomes to its mission all people dedicated to the cause 
of eliminating poverty housing. Since its founding in 1976, 
Habitat has built more than 350,000 home worldwide, providing 
simple, decent and affordable shelter for more than 1.75 
million people.
    Shelter is one of the most basic and essential human needs. 
It is critical to good health, stable employment, and effective 
education. Failure to prioritize the need for adequate and 
affordable housing will not only deny hundreds of thousands of 
Haitian a safe environment in which to live, but it will 
diminish the returns of other humanitarian investments and 
ultimately delay real and lasting recovery.
    As part of our three-fold response to serve 50,000 families 
affected by the earthquake, Habitat has assembled more than 
21,000 emergency shelter kits, conducted more than 2,000 
structural damage assessments, and is building up to 150 
additional transitional shelters each week. To date, Habitat 
has built nearly 400 shelters and expects to provide more than 
31,000 transitional shelters, significant repairs in core 
houses over the next 5 years. We are doing this in partnership 
and collaboration with a number of organizations such as the 
Red Cross, as well as working closely with local and national 
government officials.
    These housing efforts stimulate local economies through 
jobs creation, investment, commerce, and skills training. It is 
crucial to build houses near locations where Haitians want to 
work and where they will have access to resources and knowledge 
that will allow for growth and expansion.
    While the arrival of hurricane season reminds us of Haitian 
peoples' desperate and immediate needs, it is imperative that 
Haiti and all of its international partners fully commit 
ourselves to build back better. The quality of the shelter 
solutions provided must be carefully balanced against the 
expected speed of their delivery. An effective house 
reconstruction plan that will enable families to be safe and 
secure once again must address factors such as the availability 
of land and improved security of tenure, land use and 
environmental issues, the improved delivery of basic services, 
including water, sanitation and transport, national economic 
development and job creation opportunities, disaster-risk 
reduction measures, the special problems and needs of renters, 
and particularly the expressed preferences of those who have 
lost their homes.
    Policymakers and programs should also focus on helping 
families return to homes that are structurally sound, and 
assist families in fixing homes that can be repaired. In 
addition, efforts must be made to help families re-integrate 
into communities near their friends, family members, and 
livelihoods.
    The land tenure issues that Haitians face are complex. 
Creating more permanent shelter solutions is difficult when one 
is unable to ascertain who owns the land or how has the rights 
to shelter when it is finished. Putting Haitians back into 
homes without secure tenure will subject them to the same 
arbitrary evictions and above market rents that they too often 
endured before the earthquake, and will also discourage 
investment in housing and the economy as a whole.
    This disaster also underscore the importance of building 
codes designed to address the risks inherent in a particular 
location. As Chairman Engel noted, comparing the devastation 
seen in Haiti to levels of damage seen in the subsequent 
Chilean earthquake, which was of a far greater magnitude, 
demonstrates clearly the number of lives that are saved when 
adequate building codes are enforced.
    As Congress and the administration work to support shelter 
recovery efforts in Haiti, Habitat for Humanity urges the U.S. 
Government to take the following actions: First, increase 
resources for rubble removal and for shelter reconstruction; 
increase resources for community-based solutions to land tenure 
issues with a special focus on renters since they represent a 
majority of the Haitian IDPs; focus resources on housing repair 
programs; work with the Government of Haiti and its citizenry 
to create a comprehensive urban development strategy and 
development plan; and make decisions with the knowledge that 
decentralization and resettlement are separate issues, and that 
housing reconstruction investments will only be effective in 
areas where jobs exist.
    In conclusion, Mr. Chairman and esteemed members of the 
committee, this hearing is an important step in meeting the 
critical shelter needs of Haitians. This is clear evidence of 
your recognition of the vital role that shelter will play in 
the successful rebuilding of Haiti, and I appreciate your 
invitation to participate. Habitat for Humanity looks forward 
to continuing its work with all of you and with the people of 
Haiti to help develop safe and affordable housing 
opportunities. Thank you.
    [The prepared statement of Mr. Reckford follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you, Mr. Reckford. Dr. Green.

 STATEMENT OF BARTH A. GREEN, M.D., F.A.C.S., CHAIRMAN AND CO-
 FOUNDER , UNIVERSITY OF MIAMI GLOBAL INSTITUTE FOR COMMUNITY 
  HEALTH AND DEVELOPMENT, PRESIDENT AND CO-FOUNDER OF PROJECT 
                           MEDISHARE

    Dr. Green. Good morning, Chairman Engel, Ranking Member 
Mack, and members of the subcommittee.
    I appreciate the opportunity to appear before you today to 
discuss current health conditions in Haiti and outline the 
challenges and opportunities moving forward. My testimony is 
from the perspective of a volunteer physician who worked in 
Haiti the last 20 years and is co-founder of Project Medishare 
and the University of Miami Global Institute.
    Within 24 hours of the earthquake I was on the ground in 
Port-au-Prince working with our Project Medishare team and 
created a major trauma and critical care field hospital at the 
airport. We treated over 30,000 patients and acted as the 
staging point for U.S. military evacuations to the U.S. Navy 
Ship Comfort and hospital in the U.S. and abroad.
    In June, we moved to an existing community hospital which 
continues today to serve as Haiti's only trauma and critical 
care hospital.
    In the health care sector the situation in Haiti was dire 
before the earthquake. That is why 1/4-million people died. 
Today, it is even worse. Preventable causes of death in Haiti 
range from heart attacks, stroke, and maternal emergencies to 
lack of blood supply, vaccinations, and a bureaucratic log jam 
in customs.
    Haiti's plan for reconstruction is focused on 
decentralization and industrialization. This plan cannot 
succeed if there is insufficient infrastructure in rural areas 
to attract people, including investors, away from Port-au-
Prince. This also means there needs to be an adequate health 
care safety net in these areas. Health care delivery and 
training need to be integrated nationwide, which is 
particularly important as Haiti's new health needs have changed 
dramatically.
    Prior to the earthquake there were five medical schools and 
one nursing school. Today, there is one medical school, and 
Haiti has all but lost all of its health care education 
infrastructure. Committees formed lead by diaspora, mainly from 
the United States and Canada, were partnering with the Ministry 
of Health to rebuild theses institutions, but since the Haitian 
medical system is mainly based on a French curriculum the 
participation of the Haitian diaspora is especially valuable.
    Equally, if not more important in the training of the 
physicians, will be advance education of nurses and allied 
health professionals. Haiti's anemic public health system has 
long depended too heavily on NGOs, often with a different 
agenda than the government. Facilities outside the capital were 
chronically understaffed, poorly equipped and insufficiently 
funded. Following the earthquake hundreds of thousands of 
patients fled Port-au-Prince and sought refuge in the 
traditional home communities, placing additional stress on the 
already compromised health care system.
    Haiti's health care system is truly on the ropes. It is 
important to ask ourselves whether we are attempting to solve 
Haiti's problems in the same way that it failed in the past, or 
whether now is the time for new approaches to help Haiti help 
itself. These strategies must include procurement reform, 
employment generation, capacity building. Priorities should be 
given to partners who have past experience, on-the-ground 
records of success, integrity and transparency.
    Today the picture on the ground in Haiti is both 
encouraging and discouraging. Avoiding major famine and 
epidemics in the short term is a very fragile victory. However, 
lack of fundamental shelter, near collapse of economic sector 
coupled with the lack of flow of donor dollars bodes for a very 
poor prognosis.
    Bureaucratic hold ups and a lack of focus on the needs of 
Haiti's masses do not allow for a cure which must be rapid, 
skillful and aggressively implemented.
    In spite of U.S. citizens' donations of unprecedented 
amount of money to help Haiti, there is little evidence that 
most of these dollars have reached Haitian shores or are 
sticking on the ground. It is also extremely difficult for any 
organization that is not a traditional foreign assistant 
contractor or grantee to get inside the doors of those making 
funding decisions within the U.S. Government.
    So the answer, Mr. Chairman, is no, we are not moving fast 
enough to help Haiti. Six months after the earthquake millions 
of Haitians are still living in inhumane conditions with few 
services available and virtually no prospect of employment or 
opportunity. The U.S. must change the way we do business in 
Haiti. Public/private partnerships are essential. Following 
traditional passive assistance will only lead to more of the 
same.
    Thank you for this opportunity to discuss health care 
issues facing Haiti's reconstruction. Project Medishare and the 
University of Miami's Global Institute remain committed to 
rebuild a new and better Haiti. Thank you.
    [The prepared statement of Dr. Green follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you, Dr. Green. Ms. Nuri.

     STATEMENT OF MS. JOIA JEFFERSON NURI, CHIEF OF STAFF, 
                       TRANSAFRICA FORUM

    Ms. Nuri. Chairman Engel, Mr. Mack and members of the 
committee, I also thank you for this opportunity to testify. I 
speak today on behalf of the president of TransAfrica Forum, 
Nicole Lee, who could not make it here today.
    To answer your question are we moving fast enough, I agree 
with Dr. Green. Absolutely not. We are not. It is TransAfrica's 
assessment that despite the high level of financial resources 
already pledged and available, the efficacy of the relief 
effort has been undermined by structural inefficiencies, 
bureaucratic inertia and vested interested parties working to 
preserve privilege while giving the appearance of change.
    This assessment is a result of six field missions to Haiti, 
including daily consultation with Haitian grass roots, and 
community-based organizations, and interviews with camp 
residents. Our assessments are detailed in our 6-month report, 
``Haiti Cherie'' which has been submitted for the record. This 
oral statement summarizes the findings of this report.
    Unprecedented amounts of money have been raised to address 
the crisis of Haiti. It is estimated that enough money has been 
raised to provide $37,000 to each family displaced by the 
quake. International NGOs and governments alike have been quick 
to recognize the return to Haiti to the pre-quake status cannot 
be the standard and TransAfrica agrees with that. 
Unfortunately, it is our estimation that despite extraordinary 
efforts the crisis response has replicated flawed models both 
on the emergency response side and long-term reconstruction.
    The present model of relief and reconstruction has 
effectively stopped Haitian civil society from taking 
leadership roles in the rebuilding process. Their inclusion in 
on-the-ground operations as well as policy discourses, 
including congressional hearings such as today, is imperative. 
Despite a stated commitment to include Haitian participation, 
long embedded prejudices and systems continue to operate.
    Relief and reconstruction efforts have also taken place 
overwhelmingly in Haiti's crowded capital with few resources 
distributed to other regions where the need is just as great. 
Post-quake Haiti is being framed as an opportunity for further 
international investment in the poverty wage industry. 
TransAfrica Forum staff have met with textile factory workers 
who returned to work with no worker protection, wages so low 
that many have to walk home because they cannot afford their 
transportation costs. Left uncorrected, the failures of the 
post-crisis period will set a state for a reconstruction period 
that will be in crisis. There will be continued national and 
international corruption, human rights violations, wasted 
resources, and most importantly, the continued suffering and 
loss by the people of Haiti.
    Today in Haiti, over 6 months after the quake, we have seen 
little progress. Many residents of Haiti's 1,300 internally 
displaced persons camps are living in the same limited security 
and access to basic goods they found the day after the quake. 
Conditions in IDP camps remain atrocious. Haitian camp 
leadership TransAfrica Forum have met with throughout Port-au-
Prince report resources have been limited since the quake. 
Problems faced by the people living in IDP camps consist of the 
following: Infrequent food and water distribution; inefficient 
washing and sanitation facilities; inadequate security, 
particularly for vulnerable populations; minimal jobs and 
educational opportunities; inadequate and unsafe temporary and 
transitional housings, because the emergency phase of this is 
clearly not over.
    TransAfrica has been particularly concerned about the 
impact on marginalized populations, including women, children, 
the disabled, and the elderly. KOFAVIV, a Haitian CSO that 
works on issues of gender-based violence has recorded 242 rapes 
since the quake, likely just a fraction of the actual total, 
with no prosecutions to date.
    There are issues of housing and shelter. I am running out 
of time but I would like to talk about the upcoming elections. 
If I have just a few moments, I would like to say that there is 
an opportunity coming up for Haitians to become very, very 
involved, and that is the elections that are set for November 
28, and those are the Presidential and the parliamentary 
elections. They present an occasion for unprecedented civil 
participation, and voter turnout. But this requires immediate 
action for these elections to be fair and inclusive. Adequate 
funding, technical assistance, including the creation of a 
national identification card, updated electoral list, 
accessible polling places, and extensive voter education are 
needed.
    The creation of a new unbiased CEP, which is the 
Provisional Electoral Council, to oversee this year's election 
should be followed by pressure on the Haitian Government to 
establish a permanent electoral council as required by their 
constitution.
    In addition, inclusion of all registered political parties 
is the only way fair and representative elections can take 
place. International governments and NGOs must commit funds and 
manpower to create such an environment for elections which 
could give the Haitian Government both authority and faculty to 
effectively manage the country's reconstruction.
    We also should really dissect decentralization as mentioned 
by Dr. Green, and we can get into that when we get to the Q&A, 
but these things are not going to be easy, but they are going 
to be imperative, and I thank you for the opportunity to 
testify.
    [The prepared statement of Ms. Nuri follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you, Ms. Nuri. Mr. Fairbanks.

    STATEMENT OF MR. MICHAEL FAIRBANKS, AUTHOR, FOUNDER AND 
                      DIRECTOR, SEVEN FUND

    Mr. Fairbanks. Thank you very much. The recent press 
reports indicate that somewhere between 2 and 5 percent of the 
pledged funds have been disbursed. I think just on that basis 
everyone in the room can agree that we are not moving at the 
rate that we can. What is interesting is the reasons why.
    The first reason is our planning method, referred to by 
many as the waterfall methodology, which means that 
requirements cascade toward design, implementation, 
verification, and then maintenance phases. The type of people 
who are good at that aren't the type of people who deal well in 
the environments of ambiguity and underdevelopment that we find 
in places like Haiti. So we are actually configured to solve a 
problem for a time in which we no longer live, and this is a 
very important strategic planning principle.
    The second reason is that Americans are very prone to 
overresponsiblity and then underresposibility. We are there on 
the spot. We make big commitments. We speak with passion. We 
believe in our own exceptionalism and our ability to fix these 
things. And then 6 months later, when good things are not 
happening, we also are prone to point fingers, blame other 
people, make excuses, and then withdraw. I think we are still 
in the overresponsibility phase, but I think it is just about 
over; and I think the situation in Haiti is going to get not 
pretty very fast.
    Americans are also prone to be sympathetic, rather than 
empathetic. Because we feel ourselves in a very powerful 
position, we fall into this trap of sympathy where overzealous 
donors bring their own experiences to bear on the situation, 
and take decision rights away from the people that we are 
trying to help. What this means is that our model of 
development is based on a massive infusion of financial 
capital, and expertise. We go to these conferences and we 
reenforce each others' values and we congratulate each other; 
and we are filled with esteem and we develop terrific 
narratives about our own capacity, which helps us to shape 
donor fashion and raise money, and continue on to the next 
place.
    I think in some ways it is good news that a lot of money 
hasn't shown up. If a lot of money showed up, it would already 
affect a completely overvalued exchange rate in Haiti, which 
prevents indigenous innovation from happening. It would be the 
so-called Dutch Disease. Just like they found oil, they found 
aid; it would have the same impact on the economy.
    When a lot of aid shows up it severs the sovereign 
relationship between democratically-elected leaders and the 
people. I spent the entire morning yesterday with President 
Preval, and I know for a fact he spends more time talking to 
aid officials than his own people. I know for a fact that he 
spends more time thinking about development than about private 
sector innovation.
    So what can we do about this? The answer lies across the 
border in the Dominican Republic. It is a match made in heaven. 
They have unbelievably sophisticated capacity to innovate. They 
have 56 specialized zones that are world class. They have 
certain tariff relationships which allow them to export into 
the United States. But their wages have gone up too fast 
recently. It has created too much prosperity for too many 
people and it has made them price uncompetitive. Haitian labor 
is very desirable and hard working, and their wages are lower 
than China.
    If the two countries could get by the migrant issue and 
some of the negative attributions they make to each other, they 
could develop textile, construction, and tourism experiences 
that would beat China and the United States. It is a match made 
in heaven. The Island of Hispaniola could beat China in the 
delivery of massive amounts of textiles and apparel products in 
the United States, but nobody is having that discussion, so I 
want to give you a few very quick things that we could do in my 
last 45 seconds.
    The protection of tangible and intangible property; trading 
patants; focus on the market access incentives; and fiscal 
incentives for tax exemptions of certain investments in certain 
parts of the country. Forget about the migrant issue between 
the two countries; de-link it from the free trade issue. It has 
got to be solved separate from that and by a trusted third 
party. Work on the production costs, most importantly, energy 
costs in there. Focus on the hidden taxes on the economy that 
other people have mentioned here, the time to register a 
business, the time to register a mortgage, and focus on 
specialized and advanced transportation logistics.
    It turns out that the real impediment to Haiti's 
development is its lack of self-determination, its fatalism, 
its unwillingness to go into the world and compete, and the 
lack of a sovereign relationship between a democratically-
elected leadership and its people because it is being 
distracted by a discussion for a time in which we no longer 
live.
    [The prepared statement of Mr. Fairbanks follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you, Mr. Fairbanks. Ms. Balliette.

STATEMENT OF MS. NICOLE S. BALLIETTE, DEPUTY DIRECTOR FOR HAITI 
    EMERGENCY EARTHQUAKE RESPONSE, CATHOLIC RELIEF SERVICES

    Ms. Balliette. Thank you, Chairman Engel and Ranking Member 
Mack, for calling this important hearing, and giving Catholic 
Relief Services an opportunity to testify.
    My name is Nicole Balliette. I am the CRS deputy director 
for the Haiti Earthquake Response. At this time I would like to 
thank the members of this committee for the passage of the 
Haiti Economic Life Program Act, the Haiti Debt Relief and 
Earthquake Recovery Act, and for passage of the Haiti 
Supplemental. CRS is also appreciative of the other bills in 
support of the people of Haiti, and would like to especially 
thank perhaps Mr. Engel, Ms. Lee, Ms. Waters, Mr. Fortenberry, 
Mr. Meeks, Mr. Conyers for their leadership and support.
    I know this committee and the world are concerned about 
Haiti and the recovery process. CRS shares those concerns, but 
good things are being done, and we believe we can overcome the 
immense challenges that we face. But we do want to be clear. 
Together we are not moving fast enough. We cannot consider it 
fast enough when people are living without shelter, without 
security, and without livelihoods.
    We have already heard from my colleagues on the panel about 
the situation in Haiti prior to the earthquake, as well as the 
extent of the devastation with which the people of Haiti are 
currently suffering. CRS has been working together with the 
people of Haiti for over 55 years, providing immediate relief 
as well as long-term development assistance. Some of the 
highlights of CRS's response to the earthquake include that 
within hours or Haitian and international staff began 
responding. Our generous donors, including private individuals 
and the U.S. Government, began almost immediately to contribute 
what has become an unprecedented amount.
    CRS has to date spent over $30 million and together with 
our Haitian partners has made major strides in meeting 
desperate needs, including providing food, water and 
sanitation, shelter materials, health care, and protection 
services to hundreds of thousands of people. Although we and 
the others have accomplished a lot, I would also like to talk a 
bit about the constraints and some of our recommendations.
    First, the Government of Haiti must play the leadership 
role in the country's recovery, but the success of the process 
will depend in large part on the actions of a robust civil 
society. We all must encourage and facilitate strong and 
effective leadership by Haitians and provide them with the 
support that they need.
    Second, security in certain parts of Port-au-Prince, 
especially in the settlements, is a huge constraint on the 
ability of people to function normally as well as on the 
ability of actors like CRS to provide services. And if most 
vulnerable members of Haitian society are able to participate 
in the recovery, they need to be protected from trafficking, 
from sexual and gender-based violence, and all other forms of 
exploitation and abuse. Only a few years ago improved security 
in Haiti was a great success story. Could this not be 
replicated now to facilitate the recovery process?
    Third, the lack of an overall resettlement strategy 
seriously constrains the work of all the actors in Haiti. 
Current efforts are ad hoc. The<greek-l>y deg. Haitian 
Government must develop a holistic resettlement and recovery 
strategy that we can all use to guide our efforts. Linked to 
this are specific and high priority problem that has been 
mentioned here on the panel is the lack of places to install 
the transitional shelters. This is an urgent need that requires 
the highest possible prioritization, and two of the solutions 
have been mentioned--the quicker removal of the debris and the 
rubble--and then the securing of land.
    The Haiti earthquake response is large-scale and complex, 
and having worked myself in places like Angola, Sierra Leone 
and Eastern Congo, I do know what complex is. But we cannot let 
the complexity prevent us from achieving immediate results 
while we also lay the groundwork for long-term development. We 
need to strike this balance, and we need to act in solidarity 
with the Haitian people to help ensure not only that the right 
things are done, but that they are done in the right way.
    The solution requires the leadership of the Government of 
Haiti acting in partnership with civil society, including key 
actors like the church in Haiti, and the support and assistance 
of international actors, including the U.S. Government. There 
is trauma and devastation in Haiti. There is no doubt. But 
there is also hope and I would like to share a story that gives 
me some hope.
    Within hours of the quake our Haitian staff in Les Cayes in 
the southern peninsula they got together. They loaded up trucks 
with food and non-food items, and they hit the road. They came 
to Port-au-Prince. They were worried about their own families, 
their own friends, but they were worried about their colleagues 
as well and all the victims of the disaster.
    When I was in Haiti recently, I was co-facilitating a 
workshop with some partners, and I heard similar stories from 
Carry Toss Haiti, from the government of people who did the 
same thing throughout the country. This illustrates for me that 
when the need is great and the actions to be taken are clear 
people will find a way.
    The stage of the recovery process that we are in now is 
perhaps more confusing. So much needs to be done and there are 
so many different ways to do it. But with leadership and 
direction to guide our efforts we can find a way. We are 
grateful for all of your efforts, and those of other members of 
the U.S. Government to do what you can to support the people of 
Haiti. Thank you.
    [The prepared statement of Ms. Balliette follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Well, thank you very much, and thank you all for 
wonderful testimony. I want to say for me, and I know I speak 
for Mr. Mack, we appreciate the hard work that all of you have 
done and the help that you have given the people of Haiti, and 
helping us to focus on what we should be doing in the Congress.
    Dr. Green, let me start with you. You talked about the 
medical schools and things that have been destroyed. What about 
the hospitals? I am told that there is virtually perhaps one 
hospital, or a lot of the hospitals have been destroyed. What 
can we do to make sure that there is enough care, that perhaps 
the hospitals are rebuilt? What should the Congress be doing to 
help ensure that?
    Dr. Green. Well, I think there has to be a coordinated 
plan, and that really has to be integrated through all the 
sectors. You can't isolate health care without housing and 
agriculture and micro finance and all the components. There was 
a very feeble system that was there before that really was not 
effective, and so in Port-au-Prince right now we have moved 
into a preexisting community hospital. We have strengthened it, 
and we are running as a critical care hospital. It is the only 
one in the country.
    There is a network of regional community hospitals, most of 
which are run by NGOs, and there is also national hospitals. 
They are underequipped and understaffed. There needs to be a 
national plan for public health and there needs to be a 
national plan for critical care and rehabilitation, and what 
Project Medishare is doing is creating a public/private 
partnership to create a national net work of critical care and 
trauma centers in disaster response so this never happens 
again.
    But it is not going to be Ministry of Health. It is in 
partnership with the Ministry under the government's control, 
but it is a foundation that will be self-sustaining through a 
catastrophic insurance plan, and this is what we need--
sustainable systems, because if you create, if you build 
hospitals, how do you sustain them? How do you fund them? And 
this is why we are looking to the private sector to partnership 
with the public sector to create the income necessary to 
support the public mission. I think that is the clue.
    Mr. Engel. Do you think that the prioritization has been 
wrong? Do you think that the health care needs have been pushed 
down in the scale in terms of the international community 
response, or do you think that it has been adequate and that it 
is moving along fairly well?
    Dr. Green. You asked the wrong person. It is really unfair, 
because the formulas for countries like ours where the GNP is 
say maybe 4 percent health care, but in Haiti there is no 
infrastructure. So when they take 4 percent of the 
reconstruction money, it is a joke because there is no 
hospitals, there is not one hospital in Haiti except our with a 
ventilator, with oxygen in the walls, with sterile operating 
rooms for $10 million. So it has to be a balance of community 
health along with specialized center, and I can tell you in the 
central plateau, which is the most isolated part of Haiti, we 
serve over 100,000 Haitian citizens in a very isolated area for 
less than $10 a year per person, child birth through 
geriatrics. We have a model. We have to fund that model in 
cooperation with the government, the ministry and the NGOs 
working together.
    Mr. Engel. Amazing, you do amazing work, and we are all 
grateful to you for it. Thank you.
    Let me ask Mr. Reckford. Cheryl Mills said at the State 
Department on the 6th-month anniversary that the international 
community has pledged about 125,000 shelters which would cover 
about 6,000 people. Now we know we have the onset of the 
hurricane season. It is coming soon. So how quickly can these 
temporary shelters be built, and what will happen to the 
hundreds of thousands of others who will not be able to move 
into a structurally sound shelter?
    Mr. Reckford. I think capacity is ramping up quickly. It is 
certainly slower than we or anyone else would like. Due to the 
core issue, and I think there is starting to be attention on 
it, is really the land issue. So what is the system for titling 
land, allocating land, and providing for secure tenure for 
families so as we put them in?
    I think there are going to be two types of shelters, 
transitional shelters that could be moved or reused or 
recycled, and then our preference where there land issues would 
be upgradable transitional shelters that actually can be turned 
into permanent housing ideally.
    I think the shelters are designed--the ones we are building 
are designed to withstand 100-mile-an-hour winds, so they would 
help in a Category 1 plus hurricane, and then realistically we 
are stockpiling emergency materials in the case of a more 
devastating hurricane to be able to support families, but it is 
a huge issue and the faster we can get land issues, I think, as 
well as the supply chain of materials the faster Habitat and 
other groups can ramp up their production.
    Mr. Engel. Let me ask anyone on the panel who would care to 
answer. Can you describe the bottlenecks to improving shelter 
such as land and building materials, supply chain constraints, 
and how the U.S. Government is working to address this issue? 
How do you envision a robust repair program for existing 
damaged homes that will help to accelerate the transition? 
Anybody would care to comment based on your experience.
    Mr. Worthington. You asked a very tough question, and the 
roadblocks are in many places. It goes from getting goods 
through customs to other issues. You mentioned the roads 
earlier. If you had to make a new road through Port-au-Prince, 
you would have to displace people; the ability of the 
government to make decisions that then are actually implemented 
on the ground is constrained. There are decisions made at the 
Presidential level but it is very difficult since there is such 
poor infrastructure, I believe to carry out those decisions it 
took 7-8 weeks just to identify the first piece of land where 
you could move people from some of the camps.
    There is a recognition that this needs to change, and in 
many ways it reflects the fact, unfortunately, that the key 
people in the Ministry of Planning were killed during the 
earthquake. Also it is not just the challenge of the government 
in doing this. It is the ability of the international community 
to help people, as Dr. Shah mentioned, to move back into some 
of these houses that are green, and to reconstruct the ones 
that are yellow.
    There is a significant psychological challenge that the 
people of Haiti face. The number of individuals who say, ``I do 
not want a concrete roof over my head'' is enormous. So even 
though there are good houses, you have people living in tents 
outside those houses because they are afraid to move in. One of 
the good things about transitional shelters is they are wood 
and you do not have that psychological barrier. But to be very 
candid, we are talking years here, and it is going to be a slow 
process because you have both the psychological, bureaucratic 
and capacity issues that stand in the way of making this idea a 
solution.
    Mr. Engel. I will give Ms. Nuri a chance to answer that, 
but I also want to throw out this question: How about the 
people there? You know, when I was there in March I was amazed 
at how even-tempered the people seemed to be. You did not see 
anybody with rage. People seemed to welcome us. We were one of 
the first groups to come. I thought, my goodness, there are so 
many people out on the street with nothing to do, no house to 
return to, no job to go to. You know, you wonder why there 
wouldn't be some kind of a riot or whatever. I was just amazed.
    Is that the situation now or are people starting to just 
get fed up and feel hopeless and starting to feel outraged? Mr. 
Jean-Louis, did you want to----
    Mr. Jean-Louis. Well, I just got back from Haiti about 2 
weeks ago, and I could really start to see a little change in 
peoples' attitudes. They started to be a little bit fed up. Not 
all of them because for some people it is a good way to escape 
or even deeper poverty because they have a space in some of the 
tents, which is hard to say, but it is a reality for some of 
them. But yes, I am really afraid that we might have more acts 
of aggressions coming up as I mentioned earlier because of the 
hurricane season that is coming up and also the election that 
is coming up in November.
    Mr. Engel. Thank you. Mr. Worthington, did you want to----
    Mr. Worthington. One of the things our community did is we 
actually pushed quite hard for the White House to maintain the 
U.S. military presence down there longer, and usurping 
nonprofits and military. In this case we had tremendous 
cooperation with the U.S. military in terms of security, and we 
are seeing that security as the situation unfolds. I think Mr. 
Jean-Louis has phrased it well. You have a resilient, patient, 
very capable people. We had an individual a week after the 
earthquake whose sole focus was on Haitian civil society. There 
is a pent-up capacity in lots of local Haitian organizations 
that is not being tapped, and unfortunately that inability to 
have an effective conversation with government from Haitian 
civil society does lead to a significant anger.
    It is student groups, it is peasant groups, it is 
associations of lawyers--this is a society with lots of 
associations that got critiqued as the ``NGO community'' of 
Haiti. There needs to be a better dialogue with those groups 
because, unfortunately, they are an escape valve that could 
result in violence in a relatively near future, particularly 
around the election.
    Mr. Engel. Ms. Nuri.
    Ms. Nuri. I wanted to address your first question about 
moving forward. We have all sat here on the panel and many of 
us have said that the Haitian Government needs to step up and 
be able to lead this movement forward through the emergency 
phase and reconstruction. But because of a historic mistrust of 
the Haitian Government, it has translated to only a pittance of 
the money that has been given actually going to the Haitian 
Government. The Haitian Government is operating with very 
little funds. We have admitted that only 3-5 percent of the 
money is given out at all, and that money has been given to 
major corporations in this country and around the world and not 
to the Haitian Government or any assistance in building their 
capacity to take care of this.
    That has also translated to a point where the grass root 
leadership, the civil society organizations are also on the 
ground, also not getting the funds they need to build. So if we 
are looking to the government and we are looking for the civil 
society organizations in Haiti to step up and lead as the 
United States and as people of good conscious, we should also 
look at how are they being funded, how are we supporting them 
in order for them to step up and lead.
    We also have no evidence and history that the Haitian 
people are going to be anything different than they already 
are. They are very good natured. We have worked with them. Mrs. 
Waters can probably testify to this more than me, that the 
people of Haiti want to go to work, they want to build their 
country, and they want the world community to help them do this 
themselves, not us, as Mr. Fairbanks testified to, come in and 
do it for them.
    Mr. Engel. Thank you. Mr. Fairbanks.
    Mr. Fairbanks. Thank you. Poverty is not just low 
purchasing power. Poverty destroys hopes and aspirations, and 
that combined with indigenous belief systems and a history of 
disempowerment means there is not a lot of self-determination, 
there is not a lot of optimism about the future. What you see 
in the streets, in my view, is people who are moving along just 
to get along like they always have. They have never had a lot 
of optimism about their future, and nothing has really changed.
    There is a second factor that can't be avoided here which 
was--Dr. Shah mentioned the rate of diarrheal diseases has gone 
down because the rate of fresh water has gone up. A lot of food 
has gone up. In fact, and this is a little bit of a difficult 
thing to say, but a lot of the 1\1/2\ million people who have 
been displaced, their lives have improved.
    Now, people are going to resent that statement, but to the 
point where people from remote villages are sending relatives 
into the camps to live because of the access to water, 
nutrition and medical care. Part of what you are seeing is that 
the emergency response has dramatically improved the lives of 
some, not a trivial portion of the population.
    When our underresponsibility phase kicks in, because we are 
already delivering less food to the people and even less 
medical care than a few months ago, that is when we are going 
to see a restive population get very angry. That is when we 
will begin to point fingers, and that is when things will begin 
to deteriorate at a higher rate.
    Mr. Engel. I am going to go to Mr. Mack, but Ms. Nuri 
quickly raised her hand. I don't know, Dr. Green, did you? I 
didn't notice. Okay, yes, I am going to give the two of them a 
chance to respond, and then I will call on Mr. Mack.
    Ms. Nuri. I think that what Mr. Fairbanks just addressed is 
wrong. I think that the people of Haiti--in TransAfrica, we 
know from our research that the people are not living better 
than they were living before. People are living in camps 
because their homes fell down. A lot of people are coming back 
into Port-au-Prince because we need to address that issue of 
decentralization. Thousands upon thousands of Haitian left 
after the earthquake to go to their homes, their heritage 
homes, but there was no aid there. There was no water there. 
There was no medical care there. So they came back to Port-au-
Prince. They are stuck in Port-au-Prince because there is 
nothing--we have not put aid outside. We had no roads. We don't 
have medical care. There is no water outside of Port-au-Prince.
    And for the statement that Haitians don't want to have a 
concrete roof over their heads, there is no proof that those 
homes are going to sustain them, and the fact that Haitians 
would rather live in camps is offensive. It is not true. It is 
not true from any research or any NGOs that we have worked with 
on the ground there or even the people we have come to this 
country to testify before this Congress.
    We have got to figure out how to assist Haitians in 
decentralization. Government, economies, jobs, health have to 
be outside of the city of Port-au-Prince in order to 
effectively talk about rebuilding Haiti or building Haiti to be 
a better Haiti.
    Mr. Engel. Dr. Green.
    Dr. Green. I agree with Ms. Nuri, and I think that the 
problem is our Government, our nation means well, sends water. 
We send food. But at the end of the day they are worse off 
because we do it for all the socio-economic reasons that were 
mentioned earlier.
    What we need to do, what we talk about teaching the 
fishermen to fish, not giving you fish, and if we don't wake up 
this time and create jobs and opportunities and schools, and 
make people buy their housing with micro finance, let them earn 
their housing. In the DR, tens of thousands of houses were 
built 10 years ago. They are all trashed because they were 
given to people who needed shelter. There has to be a 
coordination between all the sectors, health care and 
education, and industry, agriculture, micro finance, 
sanitation, and that is what we need to do right. We had better 
learn because we have never had it right before. I really 
believe that.
    Mr. Engel. Thank you, Dr. Green. Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman, and I want to thank 
again everyone on the panel for your insight, and as I listened 
there was some common themes and there was obviously some 
points where there was some disagreement, but I think those are 
good things, and we might not appreciate some of the 
terminology that one uses in trying to make a point, but what I 
think I heard is that we need to be careful that we don't 
create a permanent camp; that we have to, and I think Mr. 
Fairbanks was trying to get to that, that we are not creating a 
permanent camp.
    I was struck early on by, and I know I am going to butcher 
your name so I am sorry, Jean-Louis, and because of your unique 
position in the world to hear the heartfelt testimony something 
struck me very clear through all of the testimony, starting 
with yours, and that is, there is a basic security, human 
rights issue that if we do not handle, if we do not get control 
of will be a cancer to any reconstruction and any long-term 
recovery and growth for Haiti, and I do believe that there is a 
role for the United States to play, and so I would ask you, and 
don't answer it yet because I want to get through some of these 
points, and then I will let--but I am going to ask you, will 
the people of Haiti see if the United States more active in 
security and some of these human rights, will the people of 
Haiti see that as the United States overstepping, or will the 
people of Haiti see that as a welcomed offer from the United 
States?
    The other thing that I heard is that we really need to rely 
or bring in--make sure that the Government of Haiti is the key 
player in whether it is the basic needs of security, human 
rights, to the reconstruction with homes, shelter, food, water, 
hospitals, education, or to the long-term planning of how to 
help Haiti then become--I should say take advantage of what we 
all know to be inherent in all of Haiti, and that is, hard 
working people who want to provide for themselves.
    So another thing I think the United States could play a 
lead role in is coordination, helping set a structure where we 
don't necessarily lead it, but to create a structure where all 
of the different elements can come together and you get out of 
this bureaucracy mud. It just stops everything, and I hope to 
have the opportunity to talk with the chairman, maybe there is 
a way we can work together to create this kind of framework to 
allow all this to happen.
    So, again, I break this down into the basic necessities of 
human rights and security has to be one of the first things 
that we tackle. The reconstruction, and I will say this, that I 
think if people who have lived through hurricanes or lived 
through earthquakes, there is a psychological toll that it 
takes. I can see people saying, I don't want to go back in a 
structure with a concrete roof. That doesn't mean I do not want 
to have a place to live, but it means that I don't want to put 
myself in a place where that roof could come down crumbling on 
top of my head. I definitely see there is a psychological thing 
there.
    And then the long-term approach to helping Haiti realize 
its dreams, and the real frustrating part of this is all of 
this has to happen at the same time, and this is a challenge of 
monumental proportion without the help of all of you, without 
this committee and the Congress recognizing its role, without 
the people of Haiti, this will not happen. And so I am going to 
put it out there as a statement. I would like to hear from you, 
Mr. Jean-Louis--I am trying, I am trying, and then maybe we can 
go down and you can just give a quick kind of thoughts on what 
I have laid out. Thank you.
    Mr. Jean-Louis. Thank you very much for the question, and 
Haiti has always been in a situation where Haiti needed help, 
and when I say ``always,'' I am probably referring the past 200 
years, since their independence. Now the situation which just 
devastate Haiti on January 12th is a situation that nobody 
could actually foresee and think about.
    Would Haiti feel that the United States is afraid if they 
come and help? No, I don't think so because before the 
earthquake Haiti has been asking for help, been crying for 
help, you know, however possible way. We just have to be 
careful in how we help Haiti. It is a small island and it is 
right next door. We don't have a lot of internal problems in 
Haiti. We don't have any religion problems, any wars. We are 
just a group of people that are looking for a better situation, 
and something that I never understood as a Haitian is how 
difficult is that to actually have such a small nation that is 
located just a couple of hours away from America.
    I think all Haitians would be more than happy to be helped, 
but I think Haitians always will love to keep their dignity, 
and will love to let people know that, you know, they mean 
something to the world regardless of all the bad situation that 
has happened to Haiti. As you must know, you know, we went 
through the worst catastrophe from hurricanes, to earthquakes, 
to political unrest and so on.
    So, no, I think we are dealing with a nation that is just 
ready and waiting for help, for real help, and that is why most 
people here are a bit stunned by the reaction of the Haitians 
after the earthquake. It is true there has not been too much 
violence really compared to the level of devastation, so that 
tells you a lot about the Haitian spirit. So, yes, we need the 
help but we need the proper help.
    Mr. Worthington. Thank you, Congressman Mack, for your 
question, and the challenge for a U.S. nonprofit, and we always 
use this term ``NGO,'' you have this mission. You have various 
different missions and the bottom line is you want to keep 
people alive. You want to educate, you want to provide safe 
places for children in camps. You want to distribute food, but 
at the same time you do not want to become an obstacle to 
rebuilding, and that ultimately even though our members are 95 
percent staffed by Haitians, it is ultimately a rebuilding 
process of a nation. And that solution, and I am listening to 
this whole panel here, even through different people, it is the 
combination of all of these things.
    It is greater government capacity. We must have the private 
sector and so forth. You must have Haitian civil society, and 
at least for some time you are going to have international 
nonprofits--whether it is working through church groups or 
other groups--as part of this solution. Right now there is sort 
of a scramble for resources. As I mentioned, all these private 
resources have not gotten there. But on average, if you look 
across our communities, about 92 cents on the dollar tends to 
actually be distributed in-country. I am nervous, and I have 
heard this about the long run. Will these long-term pledges by 
government actually come through because this will take time? 
The Haitian people absolutely have the right to be very annoyed 
if they are still in camps a year from now and the 
international community has moved on, or 2 years from now. 
Attention needs to be maintained over time.
    Ultimately it is about the faith of the community to 
rebuild itself, and our role as international actors is to do 
what we can to facilitate that, but there are clear 
contradictions and challenges between the imperative to keep 
someone alive and slowly doing less in camps because you don't 
want people there forever, and the ability to rebuild, and that 
rebuilding inevitably is slower than what you could do in terms 
of feeding, sheltering, and providing support in a camp, and 
that is clearly not an adequate solution for the Haitian people 
and their human rights. Thank you.
    I must apologize to the chairman. Unfortunately, as I had 
mentioned earlier, I do have to leave at this point, and thank 
you very much for this opportunity.
    Mr. Engel. Yes, thank you, Mr. Worthington. Thank you. Mr. 
Reckford.
    Mr. Reckford. Thank you, Mr. Chair.
    I would just reiterate. I believe sort of a common theme is 
all of these pieces are needed. We desperately need shelter, we 
need all the other services. It is going to start ultimately 
though with economic development. People need jobs, and if they 
have jobs they can then--they can pay for shelter. They can pay 
for the other things they need, and so I want to go back to 
what we really need is the encomia roadmap and the 
acceleration.
    Even if it is not all done, there needs to be clarify 
around where the major infrastructure investments are going to 
go because we don't want to build permanent housing unless we 
know there is going to be an economic base to support the 
families in those. So before decentralization is going to work 
we need to know where the major investments and infrastructure 
are going to go. So the sooner there is the land planning, both 
for the economy as well as for housing for families, the faster 
those pieces can move. So even if not all the economic 
development happens, even the commitments and the knowledge 
that it will be coming, allows more actors to develop housing 
and allows the private sector to begin to invest which there is 
no structure now for the private sector to really come in and 
make investments in Haiti.
    Dr. Green. I am sorry Mr. Worthington left, but I was 
shocked when he said 92 percent of the dollars have landed in 
Haiti. I would like to guess it is about the opposite of that. 
He is not here but if anyone else has evidence that 90 percent 
of the billions of dollars raised are in Haiti, it is sure 
invisible.
    I think what is needed, you talk about security, that is a 
big issue, and the United Nations has been inadequate. They 
have army soldiers and heavy armored equipment with flack 
jackets and helmets. There is no armies to fight in Haiti. We 
need to develop a Haitian police force that is professional. We 
need to get rid of the armed forces and bring in United Nations 
police to instruct the Haitian police force and pay them 
adequately so there is integrity, professionalism. They don't 
have bullets for their guns. They don't have computers. They 
don't have jails. They don't have a court system. So all these 
things are essential.
    But development needs to be multi-sector. It needs to be 
integrated. There is no sense in me putting in a hospital if 
there is not a factory. There is no sense putting houses if 
there is not agricultural. We built a factory in the plateau 
called Achamill that mills grains and beans, and micro 
nutrients. That is what is needed, the economic engine. My 
farmers in the plateau, you say selling food? They cannot even 
raise enough, they don't have a tractor. They can't even raise 
enough to eat. So you have to first level it from a substance 
crop to a cash crop so they can pay for their houses through 
micro finance.
    This is the integrated development, community development, 
bottoms up. That is what is going to be successful in Haiti, 
and they deserve it, and they deserve it now. Thank you.
    Ms. Nuri. I want to agree with Mr. Reckford that we need 
jobs, that the Haitian people need jobs, and we have to make 
sure that they have decent wages and labor protections. A job 
for the sake of a job is not going to serve the community or 
the economy or the future of Haiti. So to make sure that there 
are labor protections in place when there are factories or in 
any other place where they have a job.
    The panel is discussing wonderful, very large, lofty 
solutions, but there are some things that can happen on the 
ground right now that Congress can put in place, and Mr. Shah 
can correct immediately. One of them would be to include 
Haitians in the United Nations coordinating rebuilding efforts. 
There are cluster meetings that are happening daily that are 
being translated into French and English, that are not being 
translated into Kreyol, and Haitians by and large are not 
invited to or not even allowed into those meetings. So if you 
want Haitians to be part of the solution they should be part of 
the meetings where the solutions are being crafted, and the 
language they speak should be translated. That is something 
that could be corrected immediately.
    The security precautions and zoning systems have stopped 
aid organizations from having an effect the way they need 
because many of the international NGOs continue to use security 
protocols which limit their movement throughout Port-au-Prince, 
including measures to have them have direct interaction with 
Haitians and be able to evaluate their own programs.
    There is a zone system by which they cannot go into certain 
areas because of security protocols that have been set up in 
ancient times that Mr. Shah can break down right now and allow 
agencies to really get into these camps, really see what is 
going on, make sure that adequate food and water is being 
delivered every single day. Those are things that we can 
correct immediately.
    The other thing is the international organizations, 
including USAID, have such strenuous and lengthy accounting and 
auditing requirements that local groups simply do not have the 
capacity to compete or the process the proper paperwork. They 
are being asked for 3 years of audited receipts in order to 
become a contractor, and beyond the fact that there was an 
earthquake so how would you find your receipts, the process in 
Haiti is not the same as here, so you are asking--we are asking 
contractors or people who could step in and help in Haiti to 
live up to unrealistic standards of how you get the contract.
    Those are things that we can fix right now. Everything the 
panel has talked about has to be addressed, and as you said, 
Mr. Mack, it has to be addressed immediately. But the things I 
just listed can be corrected in a moment by Mr. Shah's office 
and by members of this committee.
    Mr. Fairbanks. Thank you. The world met in March at the 
United Nations and I was there, and I made a list of the 
platitudes that were spoken at the time. I will read you a few 
of them: We need to build the engines for progress and 
prosperity. We cannot accept business as usual. It is tempting 
to fall back on old habits and the requisite is essential that 
Haiti take ownership in the rebuilding effort.
    We have not made progress on any of those, and that was in 
March. What we have done very well, while the world was looking 
at Haiti, is connected it to global networks of charity, aid, 
debt forgiveness, and sentimentality. That is what we have 
connected it to.
    One of the world's greatest economists in history, Pope 
John Paul II said, ``Poverty is the exclusion from networks of 
productivity, investment, and trade.'' Pope John Paul said 
that. What are we doing to connect the Haitian people to 
networks of productivity, investment and trade?
    I can tell you right now an NGO collected $600 million in a 
campaign to help Haiti and hasn't dispersed a single dollar. 
What is happening is that USAID is preaching the benefits of 
decentralization, but cannot hire a non-American consultant to 
go down and work in Haiti even though the Colombians understand 
a lot more about post-earthquake recovery than we do. They 
cannot hire a commercial consultant from the Dominican Republic 
even though they know how to grow things and sell things from 
the island, and we don't.
    Congresswoman Waters talked about budget support for Haiti. 
There should be no debate for this. We should provide budget 
support for Haiti. But USAID, to its eternal shame, has 
constructed a parallel decision-making government in every 
country in the world in which it works. They have duplicated 
and created a parallel decision-making structure and won't have 
anything to do with the decision makers in the host countries. 
That is just wrong, and we are the only major power to do that. 
Japan gets it right and America gets it wrong. Sorry.
    Ms. Nuri. Venezuela.
    Mr. Fairbanks. And Venezuela gets it right. Maybe that is 
the only thing they get right.
    Budget support is a really good idea. If we trust the 
Haitians, we should provide it. If we don't trust it, why are 
we giving them money anyway?
    Finally, what I would say is that we need to find the 
indigenous innovators in that country in the sector, find out 
who they are, how they do what they do, and give them rocket 
fuel. There is a list of the world's best entrepreneurs in 
Haiti. They would all be billionaires if they were raised in 
America. They know how to employ people. They pay taxes. They 
don't pollute the environment. This doesn't sound like the 
Haitian private sector that gets all the news, but they are 
there, and we need to find them and we need to give them rocket 
fuel.
    We need to look at the indigenous social entrepreneurs. I 
hate that term, I regret using it, but find the indigenous 
ones, find out how they do what they do, and give them rocket 
fuel.
    I am going to say something contentious again, but I am 
going to pick on myself and not on anybody else, because maybe 
that will make it more palatable. The only people that are 
really benefitting from the way that we structured aid all over 
the world, especially in Haiti, are people like me. I am 
getting richer. Because of the oligopolistic structure that has 
been set up to favor me, I am the one that is doing well in 
this environment, not the people that we espouse to be helping.
    Ms. Balliette. Thank you, Congressman Mack. I would like to 
go back to one of your comments.
    You did talk about the trauma in Haiti and I would like to 
just come back to that for a minute because we should not 
forget it is a traumatized country, and that includes all the 
people living there: The people who work in CRS who are there 
who started working immediately in the earthquake relief but 
were in fact traumatized. Members of the government and all the 
other organizations working there, that does affect what is 
going on right now, and we should not forget it. When we wonder 
why things are not moving more quickly, more smoothly, there 
are things to be done better, but we have to remember that 
underlying trauma that you don't necessarily see. You are 
walking down the streets. I know many of you have been to Haiti 
as I have. You see people getting back to life, getting back to 
work, buying things in the market, but inside there is a trauma 
that they are still trying to overcome, and that does affect 
your ability to plan for the long term. We see that in all 
devastated countries, your ability to really think long term 
and make those decisions in your own lives that will affect 
your long-term prosperity.
    Going back, I think, to what the U.S. Government can do, I 
think there have been a lot of good ideas here. I think, in 
general, it has to do with listening. What is it that the 
Haitian Government is asking of us that we can do to help them?
    When we talked about shelter earlier there is a process 
that the government is rolling out in coordination with the 
U.N. and with NGOs to identify the houses that can be repaired, 
to classify them, to determine what needs to be done, to go 
back and verify that the work has been done well. There is a 
process now for that that we need to follow up on, but for that 
to move quickly perhaps there are more experts that need to be 
there. Perhaps there is more work to be done on the building 
codes, and perhaps there are experts from this country who can 
provide additional assistance if the Government of Haiti is 
asking for it.
    Finally, I think in terms of funding, this has been 
mentioned, there is the flexibility factor. The more that can 
be done to be flexible the better we all will be, the more 
creative we can be in our solutions to resolve the problems 
that exists now. Thank you.
    Mr. Engel. Thank you. Before I call on Mr. Payne, I just 
want to acknowledge the presence of the former chairman of the 
full committee, Congressman Gillman, and we thank you for being 
here. You can see Congressman Gillman over there. You can see 
is portrait in the middle over here. I actually think you look 
better now than you did then, Ben, but we are always happy to 
have you come back and visit us, so thank you for your 
presence.
    Mr. Payne.
    Mr. Payne. Thank you very much, and I, too, had the 
privilege to serve under Mr. Gillman as the chairman, and it is 
good to see him again, and he is with us every time we meet 
because his picture is there watching us.
    Let me say that we talked about the heavy roofs and that 
people are reluctant in Haiti now to deal with them. As you 
know, because hurricanes were the problem in Haiti as we all 
know, it was felt that you need a strong roof because the roofs 
are what are destroyed in hurricanes. And so since there has 
been no earthquake for over 100 years no one thought 
earthquake, and therefore the heavy roofs, which have become so 
devastating in the earthquake now create a dilemma because then 
people have to decide do we try to prevent hurricane resistance 
or is it the possibility of an earthquake and this coming down. 
So that is just a sidebar that is going through the mines of 
some of the people in Haiti.
    I think, secondly, the U.N. clusters that have been kind of 
exclusive that pairs with the Interim Haiti Reconstruction 
Commission having representatives, they have deputies, they 
have senators, they have local people on, I think that those 
days, the first 6 months, problems of exclusion and confusion 
and, you know, this has been the most devastating tragedy to 
happen anywhere in the world if you take it to scale.
    And so I think that with the new--the Interim Haiti 
Reconstruction Commission, some of those, hopefully, probably 
that have occurred in this first 6 months will be dealt with 
which several of you mentioned, and I could not agree with you 
more.
    Thirdly, I think that Mr. Fairbanks brings out a very good 
point, that the possibility for Hispaniola as an island to move 
forward you are absolutely correct. The wages are going up 
around the world. China is starting to have strikes. The DR 
getting to be a middle income country, and so the possibility 
of tying Haitian labor with the possibility of a growth on the 
island is great, and I agree with Ms. Nuri that we certainly 
have to have labor rights and to try to have an expanded wage, 
but I think that can certainly be, or expand on an incremental 
basis.
    However, I do think that the opportunity is right. As you 
know, the DR has had a history that they talk about the 
occupation of Haiti more than they do about the occupation of 
the Spanish. They remember their independence from Haiti over 
there and their independence from the colonial powers. So as we 
know the history on Hispaniola during that period before was a 
very tough, ugly history that the Dominicans was one of the 
problems between the two countries.
    I think that currently the new President Fernandez in a 
recent meeting that we have had with him with members of the 
Congressional Black Caucus led by Congressman Rangle talked 
about wanting to extend their hand to Haiti to be more helpful, 
and as a matter of fact they were fairly helpful, showing a new 
relationship and respect and cooperation between the DR and 
Haiti. So if that can be built on with the new leadership in 
the DR, not new but relatively new, and with the elections 
coming up in Haiti, I think that if we do some focusing it 
could be to see how we can marry the two, where they can both 
prosper, continue to prosper, and I think that we may be ready 
for a new day, and that is where efforts that I am going to try 
to expend, would how can you, you are one island, you know, how 
can the two of you work together to benefit both of you.
    Just a question. With the elections, Mr. Jean-Louis, there 
will be two elections as you know, the elections for deputies 
and senators will supposedly be in November of this year, 
Presidential election is not this year. Presidential elections 
will be held between February or May 2011. These two elections 
are not at the same time.
    One of the problems today is that the entire deputies have 
expired, two-thirds of the senators have expired, leaving only 
one-third of the governance. One, how do you see, if you are 
that familiar or anyone else, how do you see the elections 
working out? Do you think the peoples' mindset is there for 
elections? To your knowledge, has the registration been 
completed? And thirdly, is it true that Lavalas is excluded 
from the elections, and if they are, who is excluding them? I 
mean, who can exclude them? The President? What is going on 
there? Maybe you can----
    Mr. Jean-Louis. Well, as an artist, I always try to stay 
away from politics.
    Mr. Payne. Okay, that is a good point.
    Mr. Jean-Louis. I come to witness, you know, to testify 
about the situation in Haiti and hopefully by me testifying 
will be able to help the country. I might have ideas on some of 
your questions but I prefer not to----
    Mr. Payne. Okay. Well, since you are the only Haitian 
there, that is why I asked you the question. But if you are an 
artist, and prefer to keep it in that vein, that is fine.
    Anyone else like to comment on any of those issues? Yes, 
Mr. Fairbanks.
    Mr. Fairbanks. Nobody has any idea who the next President 
is going to be and no one has any idea who is even running in 
the election. There is one thing that is clear, which is 
President Preval will choose someone and that person will have 
the highest probability of success, and that President Preval 
will remain in the background exerting a very strong influence 
in the next term.
    Ms. Nuri. And Mr. Payne, the Lavalas has been excluded by 
the CEP, which is in temporary form now. The constitution calls 
for a permanent panel to be appointed, but has not yet. So 
Lavalas has been excluded from the ballot by the official 
election panel.
    Mr. Payne. You know, we do try not to interfere with the 
politics of countries, but do you know of U.S. policy or 
suggestions about the CEP about exclusion of political party? 
If you are going to have a democratic elections, you know, like 
I say, it is a sovereign country so we cannot go in and say you 
have got to have these particular parties allowed to be on the 
ballot. However, if we are talking about democracy, we 
certainly should say, you know, an open democratic election is 
really what we want. Of course, like I say, you are a sovereign 
state and we cannot demand that you do anything.
    Ms. Nuri. Well, sir, I don't know of any official U.S. 
delegation that has gone and said this to Mr. Preval or to the 
board of the CEP. I don't know of any official U.S. request 
that Lavalas be put onto the ballot, but we do know in 
TransAfrica that there have been lots of Haitians in the 
diaspora who have gone on and said Lavalas must be included in 
order for it to be a fair election.
    We do know the largest political party in Port-au-Prince is 
Lavalas, so it would sort of be like most of the people not 
having their party represented on the ballot, so it will 
present some sort of problem. From what I understand, and this 
is anecdotal, I don't know anything official, that the reason 
Lavalas was left off the ballot is because Mr. Aristide was not 
in the country. But I only know that as an anecdotal thing. I 
don't know that officially. I have not read that from CEP at 
all.
    But at this point officially Lavalas is not on the ballot 
for either one of the elections.
    Mr. Engel. I am going to let Mr. Reckford answer and then 
we are going to move on because we are told there is going to 
be a series of votes very soon, and I want to give everyone who 
is up here a chance to ask questions. So Mr. Reckford, and then 
I will call on Ms. Lee.
    Mr. Reckford. Thank you, Mr. Chair. Actually, I would ask 
your forbearance. I have to leave and head to the airport, but 
I want to thank you for the opportunity to joint the committee 
today, and for your interest in this critical issue, and 
certainly would ask continued U.S. Government support, 
particularly around these issues of land because if they are 
not resolved then we won't see economic development or housing 
get solved. But thank you for the chance to be with you today.
    Mr. Engel. Thank you, Mr. Reckford. Ms. Lee.
    Ms. Lee. Thank you very much. Once again, Chairman Engel, 
thank you for this very important hearing and thank all of you 
for being here.
    I wanted, first, Ms. Nuri with TransAfrica, thank you so 
much. I want to thank Danny Glover and Nicole, and I have seen 
them all the time when I am in Haiti.
    Ms. Nuri. Yes.
    Ms. Lee. Sean Penn, and they are even before the 
earthquake, I mean, TransAfrica has continued to lead and to 
really be there even below the radar but doing such wonderful 
work. I just wanted to pursue this whole issue of Lavalas not 
being on the ballot or not being part of the election. What is 
the rationale and reason, the stated reason for that?
    Secondly, and I will just ask all my question, and then you 
can respond, to Mrs.--is it Balliette?
    Ms. Balliette. Balliette.
    Ms. Lee. You are right, everyone, anyone would be 
traumatized after what has happened in Haiti, and I wanted to 
just ask you about the mental health services, how you see that 
in Haiti, and if there are enough mental health services, are 
they culturally appropriate, and do we know what we need to do 
on the mental health front?
    And then to Dr. Green, I just want to ask you as it relates 
to HIV and AIDS. Of course, Haiti has the highest incidence, 
you know, in the Caribbean of HIV and AIDS. Has PEPFAR 
responded? Are people getting their anti-retroviral drugs? 
Prevention and treatment, is that still on the table given such 
trauma that people are experiencing such dislocation? Are the 
distribution of condoms, is testing available? Could you just 
give us a sense of how you see the whole HIV/AIDS strategy as 
it relates to now having to move forward from such a disaster?
    Okay, we can start with you, Dr. Green, and then Ms. Nuri, 
and then Ms. Balliette.
    Dr. Green. Thank you. I will take a little shot on the 
mental health area because I have been working if that is okay.
    Ms. Lee. That is fine.
    Dr. Green. The fact is if you look at all the allied health 
professionals, if you take medicine, doctors, physicians and 
nursing aside, and you look at psychologists, social workers, 
physical therapists, recreational therapist, prosthetist, all 
the different people that we take for granted in this country, 
there are no real professional schools in Haiti, so there is a 
very small workforce.
    I think the psychology association, I spoke with them after 
the earthquake had about 30 members for 10 million people. So 
the whole cycle of social, the traumatic stress that has 
occurred, all the people that are traumatized and really hurt 
by this earthquake have few resources. There are groups, NGOs 
that are working with the government to try and bring in the 
workforce, but you really need to train bottoms up psycho-
social type health care workers that are going to really 
interact with the Haitian people and help them get out of this 
crisis. That is part of what we are doing with capacity 
building. We are setting up training programs for allied health 
professionals that did not exist before the earthquake.
    The second issue, I have to tell you, this is some good 
news. HIV and resistant TB in Haiti is much better treated than 
in the United States. There is not a country in the world that 
has a more effective record thanks to Bill Path, Paul Farmer, 
all the people working in this area of infectious disease. The 
death rate has plummeted. Triple therapy, which cannot be 
afforded by many people in this country and in Europe, is given 
there. There are wonderful national and regional systems 
through the Ministry of Health in cooperation with them, and so 
these people are not dying anymore, AZT is given for 
transmission. There is wonderful programs where I work in the 
plateau, the most isolated area.
    So I have to tell you before the earthquake it was great. 
The earthquake, of course, took away the supply. It took away 
the community health centers collapsed, the doctors and nurses 
died. So we are in a bit of a bad time right now. A lot of the 
HIV people treated--the people who have been on treatment have 
lost their access to medications. This is being restored now.
    But I just want to tell you this is one thing we can be 
proud of as cooperating with PEPFAR and this program. It has 
been very effective in Haiti.
    Ms. Balliette. If I could maybe start with that because CRS 
is also implementing AIDS relief in Haiti, and we agree. It was 
somewhat devastated in the immediate aftermath of the 
earthquake, but there was such a strong basis there for that 
program that we were very quickly able to get it back up to 
speed, and ensure that all the people that were enrolled in the 
program were able to continue to get services.
    We are actually now using the foundation there for our AIDS 
relief program to roll out larger health institution 
strengthening with the network there, and in coordination with 
the government and the Ministry of Health in Haiti. So I do 
think there are grounds for optimism in the health sector.
    Going back to the trauma and just to agree that the 
capacity is not there. We ourselves brought in some people from 
actually a partner in Karitas Lebanon, to help our own staff to 
get over the trauma or to at least work through parts of it, 
and we are continuing to do things like that, but there is not 
an excess capacity on the ground to help the people so 
desperately need it.
    Ms. Lee. And Ms. Nuri, with regard to just Lavalas, the 
rationale for Lavalas being excluded, and you heard Dr. Shah's 
comment on direct budgetary support for the Haitian Government. 
What is TransAfrica's take on that?
    Ms. Nuri. Well, of course, we support direct budgetary 
support for the Haitian Government because our point of view is 
that because of whatever the reasons are, and I am sure there 
are some historical reasons, a lot of the money that is going 
into Haiti is not even going to the government. So we are 
making demands on a government that isn't getting international 
funding at all.
    And even out of the donors conference, there is only a 
handful of countries that have even given money they have 
promised in sort of an appropriations process like we do in 
this country, and they haven't gotten the money to do the 
basics of putting together the government, let alone moving 
forward and through an election.
    So we support budgetary support and support for the 
election process with all sorts of guidance that is in my 
original statement that we can get to your office.
    To answer your question about why Lavalas has been excluded 
from the ballot, what we know is that several parties have been 
excluded from the ballot. We do not know the rationale for why, 
and we can find that out and get it to the committee and get it 
back to your office, in particular, and other members.
    But we also know that the U.N. certified the last election 
and said the voter turnout was only 10 percent. We are not sure 
if there was any connection between that and who got left off 
the ballot in an official sort of way, but we will find out the 
answer and get back to you.
    Mr. Engel. I am going to move on because we have a series 
of five votes coming up and I want to give other members a 
chance to ask questions. I want to acknowledge Representative 
Sheila Jackson Lee. Committee members are here, but I would ask 
unanimous consent to allow Ms. Waters to ask her questions now 
since she has been here for several hours. So without 
objection, Ms. Waters, and then we will go on to Ms. Jackson 
Lee.
    Ms. Waters. Thank you very much, Mr. Chairman. I certainly 
appreciate the opportunity to come here today and to be able to 
participate, and I would like to thank you for the interest 
that you have shown and your travels to Haiti. I was on one 
such trip with you when we went to DR and to Haiti. I would 
like to thank all the members who have come today to serve as 
witnesses to help us make some determinations about what we can 
do to be more helpful. I would like to thank TransAfrica, Ms. 
Nuri in particular. I served on that board for many years, and 
at the time our director, Randall Robinson, almost died because 
he went on a hunger strike for Haiti, and that was an important 
moment in the history of our relationship with Haiti and what 
Clinton was able to do following those actions.
    For Dr. Green, when I went to Haiti right after the 
earthquake we landed at the airport. I came over in a little 
private plane. Your place was the first place I went to. I just 
started walking around and ended up over at the clinic that you 
guys had set up, and some of the volunteers kind of brought me 
over there and I was very appreciative for your ability to 
respond so quickly, and at that time you may have been one of 
the only emergency operations set up dealing with the trauma 
that was in Port-au-Prince other than some other makeshift 
kinds of things that were going on. So I would like to thank 
all of you for your participation today.
    All of you have talked about the lack of involvement of 
Haitians in decision making, in planning, et cetera, and that 
is an important element that is not involved, and happen to 
plan for the future of Haiti. But let me just ask Ms. 
Balliette, I think it is, from CRS. You guys are on the ground 
and you are in those cluster meetings, but the Haitians are not 
in the cluster meetings. They can't get in. I wandered around 
for a few days, and found cluster meetings and understood, 
began to understand how they were organized. Have you guys 
taken any of the local Haitians to the cluster meetings?
    Ms. Balliette. We work very closely with, especially 
Karitas Haiti, but there are also other organizations in Haiti, 
Haitian organizations that we work with. So because we are 
implementing together, we might decide, we talk beforehand what 
are the issues for the meetings, what are our implementation--
--
    Ms. Waters. But that is not my question. What I saw was the 
NGOs had access for the most part, but the people that they 
were helping did not have access. My question to you is if you 
want to break up this business of exclusion, the NGOs who have 
access should be bringing in some of the people that they are 
working for and working with to these meetings. Have you done 
that?
    Ms. Balliette. Honestly, I can't say specifically for all 
of the cluster meetings that we participate in whether or not 
we are bringing in specific individuals to those meetings. I 
can just say again the way we work is together with our Haitian 
partners to make sure that what we are doing is involving their 
voice as much as possible.
    Ms. Waters. Well, I appreciate that and I am not blaming 
you, but I am simply talking about ways that you can be helpful 
in sharing information and helping people to get involved who 
evidently are excluded from involvement.
    Yes, Dr. Green. Is your microphone on, Dr. Green?
    Dr. Green. Yes, I have to tell you that the cluster 
meetings are joke in general. We attend all the different 
clusters, and we always bring Haitian employees who are Haitian 
nurses or doctors or administrators, whatever is appropriate, 
but the cluster meetings are very ineffective. They last for 
hours. You don't talk, you don't discuss, you listen. You get 
reports, and so I think we need better interagency 
communication
    And I want to show you, I don't know if you are aware of 
this, there is a private sector economic forum, and they have 
met, and this is the private sector which represents probably 
200,000 Haitian business people, families who want to be part 
of the solution.
    Ms. Waters. Excuse me. Is that the one that Juan Henry 
Saiiant is involved with?
    Dr. Green. I don't know, but I know that they came recently 
to meet with Jean Max Bellerieve in Miami, and they have been 
very involved. They have gone to the government and said let us 
be part of the solution. I would be happy to share this report.
    Ms. Waters. I would like to see that report.
    Dr. Green. But everything you have talked about they want 
to do. They want to open up the airports and the customs and 
they want to engage the people, the masses of people in job 
creation and development, and I think this is going to happen 
if they are allowed to.
    Ms. Waters. Well, I think it is a great idea. One of the 
things we need to understand is who they are because, as you 
know, the privileged families that have been basically in 
control of the economics of Haiti for so long are very 
exclusionary, and that that middle class business person that 
you are referring to has not been really involved in the 
business development and the economic development of Haiti, and 
I think that certainly does have to be expanded.
    If I may, because he is going to shut me down in a few 
minutes, let me just say this. NGOs have had a special 
relationship with Haiti for a long time because we sent our 
money to the NGOs rather than fund the government. It's part of 
the history of all of this, and that certainly has to change. 
There has to be a working relationship and cooperation, 
reporting too, and an understanding of all of that.
    Now having said all of that everybody is trying to do 
something good for Haiti in different ways, and it has been 
expressed here. But what you cannot talk about is simply what 
our fine actor, Mr. Jimmy Jean-Louis said, you can't talk 
politics. TransAfrica can because that is part of what they do, 
and understanding how to get things done and how governments 
work.
    There is a governance problem in Haiti, a governance 
problem. When you talk about how are you going to get things 
built, how are you going to create jobs, how are you going to 
do all of these things, that is normally what would be done by 
the government. And until that is solved it is going to be 
very, very difficult for people to be able to do all that they 
would want to do.
    Ms. Nuri just talked about the CEP, and what it is and what 
it is not. You want to know why Lavalas is not on the ballot? 
Because if Lavalas was on the ballot they could elect anybody 
they want to elect. It is the biggest party in Haiti, and they 
think it is still controlled from afar in South Africa by 
President Bertrand Aristide. That is why it is not on the 
ballot.
    I sent a letter months ago, and others, I think someone 
from the Senate side sent letters, urging them to be sure and 
allow the political parties to operate and to be on the ballot 
and operate in a democratic way. The CEP determines that and 
they are picked by the President Preval. They are a sovereign 
nation, and even Bill Clinton and others recognize that it is a 
sovereign country, and you cannot just go in and tell people 
what to do.
    But I am coming to the conclusion that in exchange for 
support that we are going to have to be a little bit more 
forceful in encouraging certain kinds of things. For example, 
to stop the delivery of food and have food in warehouses and 
then have television cameras from the United States showing 
kids scraping the bottom of burnt pots trying to get a grain of 
rice while food is stored because there is a policy that says 
you can't distribute any more food because you are displacing 
the local vendors and merchants.
    United States could help with that policy and help to show 
how the agencies that are helping can purchase the food from 
the vendors so that they can continue to earn money and food 
could be given to the people rather than the food simply being 
purchased someplace else and brought in and given to the 
people, and then the government stops it because the merchants 
get mad at them.
    This has to be worked out, and if we are going to be 
helpful we need to say to President Preval and others we think 
we can help you work this out in ways that will benefit the 
merchants and will benefit the people, and the people won't 
have to be hungry.
    The land problem, the land problem is not going to go away 
by itself. First of all, there are questions about who owns it. 
There are records that have been lost and on and on and on. A 
legislature must be empowered, elected, and make some 
determinations about eminent domain and other kinds of things 
that you do in order to have good land use policies.
    We can't do that, you can't do that, but we can encourage 
and we can teach and we can have development. And this business 
about the police force, you are absolutely right. No, the 
United States cannot go in there with helmets and guns keeping 
the peace and killing people just as MINUSTAH cannot continue 
to do what they do. We have got to train and develop a local 
police force, fund it and stick with it in the training until 
they get it, and pay them good salaries.
    So some of us are going to focus on governance. Some of us 
are going to talk about what our role is going to be in helping 
to strengthen government. We are not to tell them who to elect. 
That is not our problem. But our problem is to continue to try 
and work with a situation where there is no real government in 
place, organized in order to facilitate what governments do in 
the building of this infrastructure, et cetera. This is very 
difficult for everybody.
    I think Mr. Fairbanks is right and this usually happens 
with a lot of poor nations, including Africa. Everybody makes 
money but the people who live there, because by the time all 
the consultants are hired and the different organizations are 
hiring advisors, et cetera, everybody is making money. Even in 
the Cash for Work Program going on right now, I am learning 
that our USAID is giving money to the contractors. The 
contractors are paying $1 or $2 a day, as bad as the exploiters 
on the ground who have been exploiting labor in Haiti for years 
and years and years.
    So, thank you, Mr. Chairman, for all of this time you have 
afforded me and others. We have a lot of work to do. I have 
decided which way I am going with my work. I am going to deal 
with this governance issue and hopefully we can be advisors and 
supporters and help develop a strong government.
    Mr. Engel. Thank you, Ms. Waters, and thank you for all the 
work, all the good work that you have done involving Haiti for 
years and years as I mentioned before, not just for the 
earthquake but even before. You have truly been a leader and 
have shown us the way.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, for 
allowing me to join as well, and to follow members who have 
been here to listen to the testimony, and to be able to say 
ditto in following suit on the direction that many members have 
taken, including the detailed explanation and discussion of 
Congresswoman Waters.
    I think that, although many of us have engaged with Haiti 
on many different occasions, many of them volatile as relates 
to governance, that I want to be hopeful and I want the 
hopefulness, however, to be with a very firm hand because I 
think if we don't have hope with command and firmness we have 
nothing.
    I would like to say to the chairman we are an authorizing 
committee and I would like TransAfrica to answer this question, 
I, frankly, would like to have you really be financially 
supported by our appropriations or authorizing and then 
appropriations, that means we have to move quickly to be of 
real assistance on the governance issue. All of the points that 
I have heard just sitting here for the few minutes I have 
happen to be even in the obstacles of an earthquake traced back 
to a government that is not functioning. And when you speak to 
Haitian people and you walk through the camps, that is what 
they say. Maybe in not that term but can somebody help us.
    I don't know, and I realize and let me just say that I 
acknowledge that the government lost personnel and leaders and 
parliamentarians, and all of us have offered our deepest 
sympathy and respect. When we were in a meeting with the 
President and his cabinet and staff, one of his high-ranking 
personnel had lost a son. What can you say about that other 
than to offer your deepest sympathy?
    But as we do that we really need to get boxing gloves on 
because when you have food sitting in a warehouse and you have 
orphans two miles down, around the block, up the street, you 
really have to say this. Mr. whatever dignified public position 
you have, take your feet and a bucket and go to the warehouse, 
and go back with the bucket, a wheelbarrow, the pickup truck, 
and take it to the children. That is government. Government 
finds a way to respond when no one else can.
    What happened with Katrina? They were mad at government 
because they knew everything else collapsed. They knew that the 
dam went, not the dam but the structure went in their 
neighborhood. They knew that, you know, they were up to their 
ears in water. They knew that other elements did not work, but 
they said where is the Federal Government?
    So let me ask you about what you could do if financed on 
the governance? Could you lift yourself up, plant yourself down 
with a team to begin to probe what are the fractures of the 
government where you could begin to say if you do this and you 
do this, you could at least get yourself focused on what you 
are supposed to be doing? Maybe moving debris, maybe cleaning 
up the tents, maybe taking half of the tent cities and shutting 
them down and putting people back in their home, which we heard 
a large percentage could be livable if they were fixed? Would 
you please?
    Ms. Nuri. Well, the answer to that question was I work for 
TransAfrica, and the answer is we can do anything if afford it. 
And Haiti has been a mission of the organization for more than 
20 years.
    Ms. Jackson Lee. Absolutely.
    Ms. Nuri. We have been on the ground in Haiti through all 
sorts of hurricanes, and political upheaval, and every day, 
every day we have been dedicated to this since January 12, to a 
point where I wake up every morning and the first thing I look 
for is the latest information on what is going on on the ground 
in Haiti as the organization's chief of staff.
    The decision about what we can do and how that structure 
will be, my overall answer to you is yes. The detail of that 
will be worked out by the President of our organization, Nicole 
Lee, and our chairman of the Board, Danny Glover. But overall, 
ma'am, my answer to you would be of course we want to be part 
of this. We work very closely with Representative Waters and 
Representative Lee, and with your office and with Mr. Payne's 
office, and also with Mr. Engel's office on this issue and 
others. But I would say that we truly want to be a part of 
making sure that the Haitian Government, the elected Haitian 
Government is leading Haitian people, and that Haitian civil 
society is advising that government and doing it.
    So, whatever TransAfrica can bring to the table to assure 
that for this generation and for future generations because 
like Dr. Green said, this time we have to get it right.
    Ms. Jackson Lee. Absolutely. Let me just raise this and 
then I would like the other panelists, thank you so very much, 
to answer my second question. Let me focus in on you just a 
little bit because I would like our chairman, who has been 
unwielding in his commitment to the Western Hemisphere and his 
knowledge of Haiti, and I thank you, Chairman Engel, for your 
astuteness and your commitment and passion. Let us be a little 
more specific and I know both of your leaders and they are 
wonderful people, but let me use your genius right now.
    Let us say, for example, here is the detail or not the 
detail but here is the kind of commitment, and I would like the 
chairman to be supportive of TransAfrica because of its 
familiarity and comfortableness with the people, I, frankly, 
believe that you need to be in essence sort of the box around 
the contents. The government is the contents. If there is a 
meeting talking about issues of governance and how to get the 
water on, how to move trash, I think they need that kind of 
close hand involvement.
    Certainly if there is a meeting about this recovery, 
because of our familiarity with how the garbage is supposed to 
move and how you can go to warehouse and get goods, I, frankly, 
believe that you could put a team together that would be able 
to be part. There are a lot of NGOs, and I am not leaving them 
out, but part of that structuring them to be able to put A in 
front of B in front of C, and it is not insulting to them. 
Could you do that?
    Ms. Nuri. Yes, ma'am, and I would say that the leadership 
on that would have to be the Haitian people who actually know 
it. Where the wisdom would come is coming from this government 
and coming from this country that has mastered so many of those 
many items that you have listed and far more.
    But the people on the ground in Haiti, our colleagues on 
the ground there would have to also work with us on the ground 
to get this done.
    Ms. Jackson Lee. I would not rule against that, but I would 
hope that they would be in a position that they could work with 
you, but you would have to be in a position to instruct them as 
well.
    Ms. Nuri. If what you are asking is do we want to take a 
leadership role on making sure that Haiti's governance comes 
back to shape or gets in shape?
    Ms. Jackson Lee. Absolutely.
    Ms. Nuri. That the people of Haiti are served? Of course, 
we will accept that role.
    Ms. Jackson Lee. Let me ask this question and if all of you 
would answer it, please. I get a sense that there is great 
movement but there is great suffering. I want each of you to 
tell us in your own words the limited time, of course I am 
putting my framework on it, that we have to act before we have 
catastrophes of major proportion. Can we start with the actor 
who was there, and thank you for your talent, your commitment, 
and your passion?
    Mr. Engel. Let me just say we will go right through to 
everybody and then we will have to have the last word because 
we were just called for a series of five votes.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Jean-Louis. Thank you very much. I think we have to act 
now. We have to start acting straight away if I understand your 
question. Once again, I go back to so many problems that I see 
in Haiti, and I always go back to the main one which is the 
human rights, and that is what makes me cry, you know----
    Ms. Jackson Lee. Yes.
    Mr. Jean-Louis [continuing]. To see the entire population 
living under these conditions, what can we do for them, what 
can we do for 1 million peoples sleeping out in the tents. We 
just need to start giving them places to be because we have the 
hurricane coming up, so it is now that we need to act.
    Ms. Jackson Lee. Thank you, Mr. Jean-Louis. Doctor?
    Dr. Green. I believe that the masses of people in Haiti who 
have directly suffered have had enough. I don't think there is 
any time. I think we have to show some visible evidence and 
commitment of transparency, and that we are really what we say 
we are. We are Americans who care about what their problems 
are.
    Ms. Jackson Lee. Our presence.
    Dr. Green. Medically, just as an example we raised $7 
million for the earthquake at Project Medishare. We are out of 
money in 30 days. We have the largest critical care hospital, 
the only one in Haiti. We are going to have to shut it down.
    Ms. Jackson Lee. I was there, yes.
    Dr. Green. Selling tee shirts isn't working any longer. So 
we are hoping that somewhere funding will continue so we can 
continue training health care workers, building capacity, and 
creating sustainability, but it is almost too late. We need to 
act now.
    Ms. Jackson Lee. Thank you. Let me skip you and go on to 
the--thank you.
    Mr. Fairbanks. There is not a recorded incident in the 
history of the world where aid has ever lifted a nation out of 
poverty. It has never happened. It doesn't exist, not even in a 
reasonable-sized region. Aid is very good at humanitarian 
concerns, doing what Dr. Green does, that is what aid is really 
good at. It is not good at growing an economy, and we need to 
be deeply introspective about our own limitations when we try 
to do that.
    Ms. Jackson Lee. Yes.
    Ms. Balliette. I would just say that what needs to happen 
now is we need to speed up our efforts. We need to redouble our 
efforts. I think a lot of good things are happening but we need 
to listen to the ideas of people that are coming out of the 
lessons that are being learned, and we need to work faster and 
harder.
    Ms. Jackson Lee. Thank you. Joia.
    Ms. Nuri. I would say that we have moved out of the 
emergency phase too fast. We have moved onto reconstruction. 
Our minds are into this reconstruction when people are still 
hungry, women are being raped on the streets, our children are 
not safe in Haiti, and I think that we have moved--of course, 
reconstruction should be on the plate, we should be discussing 
it. But the emergency phase, as Dr. Green has articulated, is 
still in place. And if we move on too fast we will actually 
have nothing to build reconstruction on.
    Mr. Engel. Thank you, I am going to----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Engel [continuing]. Let that be the last word, but 
first I want to call on Mr. Payne. He has a unanimous consent 
request.
    Mr. Payne. Thank you, Mr. Chairman. I ask unanimous consent 
that a statement from the American Red Cross be entered into 
the record.
    Mr. Engel. Without objection, so moved.
    Let me conclude because we have 6 minutes and 59 seconds to 
get to our votes. I want to thank all of you for excellent, 
excellent testimony. Since I have been chairman, now it has 
been 4 years, and before that as the ranking member, we have 
now had about 3\1/2\ hours at this hearing, which is the 
longest hearing I think we have ever had, and for good reason, 
because we had excellent testimony first from Dr. Shah, and 
then from the seven of you, and I want to thank the five of you 
who are left for sticking it out, and really helping all of us 
in understanding better what is happening on the ground in 
Haiti.
    We all want to be of help, but we can only be of help if we 
listen to the people who are on the ground, who have the 
experience, who can tell us, you know, cutting away all the 
extraneous materials, tell us just what is happening, and that 
is what we received today from all of you.
    So thank you for helping us to better understand what is 
going on. Thank all of you for your caring. Thank all of you 
for your excellent work. Working together we are going to 
continue to make sure that the people of Haiti get the right 
help and get everything that they deserve. Haiti is a country 
that is close to the United States, and it is a shame and it 
cannot stand that there is so much suffering there at a time 
when we have bounty of wealth here.
    So, again, thank you all, and the hearing is now adjourned.
    [Whereupon, at 1:03 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                 <all>

</pre></body></html>
